<html>
<title> - CRIMES ASSOCIATED WITH POLYGAMY: THE NEED FOR A COORDINATED STATE AND FEDERAL RESPONSE</title>
<body><pre>[Senate Hearing 110-526]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-526
 
 CRIMES ASSOCIATED WITH POLYGAMY: THE NEED FOR A COORDINATED STATE AND 
                            FEDERAL RESPONSE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 24, 2008

                               __________

                          Serial No. J-110-110

                               __________

         Printed for the use of the Committee on the Judiciary



                     U.S. GOVERNMENT PRINTING OFFICE
44-773 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
           Stephanie A. Middleton, Republican Staff Director
              Nicholas A. Rossi, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     3
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     2
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................     1

                               WITNESSES

Abbott, Greg, Attorney General, State of Texas, Austin, Texas....    14
Brower, Gregory A., United States Attorney, District of Nevada, 
  Las Vegas, Nevada..............................................     7
Fischer, Daniel, Sandy, Utah.....................................    26
Goddard, Terry, Attorney General, State of Arizona, Phoenix, 
  Arizona........................................................    11
Jessop, Carolyn, West Jordan, Utah...............................    29
Reid, Hon. Harry, a U.S. Senator from the State of Nevada........     3
Singular, Stephen, Denver, Colorado..............................    24
Tolman, Brett, United States Attorney, District of Utah, Salt 
  Lake City, Utah................................................     9

                       SUBMISSIONS FOR THE RECORD

Abbott, Greg, Attorney General, State of Texas, Austin, Texas, 
  statement......................................................    40
Brower, Gregory A., United States Attorney, District of Nevada, 
  Las Vegas, Nevada, statement...................................    44
Fischer, Daniel, Sandy, Utah, statement and attachments..........    49
Goddard, Terry, Attorney General, State of Arizona, Phoenix, 
  Arizona, statement.............................................    79
Hamilton, Marci A., Paul R. Verkuil, Chair in Public Law, 
  Benjamin N. Cardozo School of Law, Yeshiva University, New 
  York, New York, statement......................................    85
Hammon, Sara, Mesquite, Nevada, statement........................    89
Jessop, Carolyn, West Jordan, Utah, statement....................    92
Parker, Rodney R., Snow, Christensen & Martineau, Salt Lake City, 
  Utah, letters and attachments..................................   104
Photographs of Warren Jeffs and two of his wives.................   172
Reid, Hon. Harry, a U.S. Senator from the State of Nevada, 
  statement......................................................   175
Singular, Stephen, Denver, Colorado, statement...................   177
Tolman, Brett, United States Attorney, District of Utah, Salt 
  Lake City, Utah, statement.....................................   181


 CRIMES ASSOCIATED WITH POLYGAMY: THE NEED FOR A COORDINATED STATE AND 
                            FEDERAL RESPONSE

                              ----------                              


                        THURSDAY, JULY 24, 2008

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, Pursuant to notice, at 10 a.m., in room 
SD-226, Dirksen Senate Office Building, Hon. Sheldon 
Whitehouse, presiding.
    Present: Senators Whitehouse, Cardin, Specter, and Hatch.

 OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, A U.S. SENATOR 
                 FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. The hearing will come to order.
    Today we will have testimony about criminal activity 
associated with polygamy. As recent events in Texas make clear, 
this is an issue of real concern, particularly in the West and 
Southwest, and it deserves this Committee's attention. Indeed, 
the Federal Government has a great interest in addressing the 
child abuse, sexual abuse, fraud, and other Federal and State 
crimes that have originated in polygamous communities.
    We will first hear from the distinguished Majority Leader, 
Senator Reid. At the outset, I would like to take a moment to 
thank Senator Reid for his leadership on this important issue, 
as so many others. I admire his determination to support 
victims of polygamy-related crime and to ensure that Federal, 
State, and local officials are doing everything possible to 
prevent and prosecute such crimes. To that end, he has 
introduced the Victims of Polygamy Assistance Act, which would 
authorize a grant program to support victims of polygamy-
related crime. This measure would also create a task force 
comprised of relevant Federal agencies to ensure a coordinated 
Federal approach to this issue.
    Our second panel will consist of the United States 
Attorneys from Nevada and Utah and the Attorneys General of 
Arizona and Texas. As a former United States Attorney and State 
Attorney General, I have a deep appreciation for the important 
and difficult work that they do and of the need for close 
cooperation between Federal and State law enforcement. I know 
that each of these law enforcement officers is determined to 
confront this issue, and I look forward to their testimony.
    Finally, our third panel will consist of Carolyn Jessop, a 
woman who bravely escaped from a polygamous sect at age 35 
after being subjected to a coerced marriage and countless other 
depravities; Dr. Daniel Fischer, a former member of a 
polygamous community who has since started a nonprofit 
organization dedicated to helping victims; and Steven Singular, 
a journalist who has covered this issue extensively.
    There are tens of thousands of people living on polygamous 
communities, some of which have become a source of serious, 
almost unspeakable criminal activity. Women and girls are 
treated like property; children are viewed as a source of 
labor; and teenage boys who do not comply with the harsh rules 
of the community are cast off into the streets.
    It is my hope that this hearing will help ensure that 
Federal and State law enforcement resources are properly 
focused on this issue and operating in a coordinated manner. 
Perhaps even more important, I hope this hearing will shine a 
light on these crimes and on the inspiring stories of those who 
have escaped and tried to help.
    Before proceeding with the first panel, I turn to my 
distinguished colleague from Pennsylvania, the Ranking Member, 
Senator Arlen Specter.

STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM THE STATE 
                        OF PENNSYLVANIA

    Senator Specter. Thank you, Mr. Chairman. I think this is a 
very important hearing, and I commend our distinguished 
Majority Leader, Senator Reid, for taking steps to move this 
important program into the Federal arena with a task force to 
tackle it at all levels.
    There is no doubt that when you deal with items like 
statutory rape and domestic abuse and child molestation, you 
are dealing with some of the toughest problems in our society. 
I recollect my days as a prosecuting attorney, D.A. of 
Philadelphia, and noted that there was a tremendous amount of 
child abuse contributing to the delinquency of minors and 
domestic violence which went really unreported in a family 
context. And this is especially true where you have a religious 
overtone, where there are religious organizations which have 
unusual living arrangements and have societal arrangements 
which are conducive to this kind of conduct. And obviously we 
have to be very careful that we respect First Amendment rights 
and freedom of religion, but those rights do not extend to 
domestic violence, child abuse, statutory rape.
    The Texas situation has produced some very difficult 
problems with respect to what is within the province of the 
family and where the courts can appropriately intervene. And I 
think it is good to shine the public spotlight, as we are 
today, and to use this as a background for proceeding further.
    The Federal Government has a real role to play here. It 
involves many States and very, very serious issues, and the 
potential impact of organized crime or racketeering is 
something that we really ought to take a close look at.
    Thank you, Mr. Chairman.
    Senator Whitehouse. I understand that the distinguished 
Senator from Utah, a former Chairman of this Committee, would 
also like to make a brief opening statement. Is that correct, 
Senator Hatch?
    Senator Hatch. Yes, Mr. Chairman.
    Senator Whitehouse. Please proceed. You are recognized for 
an opening statement.

STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM THE STATE 
                            OF UTAH

    Senator Hatch. Yes, Mr. Chairman, I will be very brief, as 
I know you have a full agenda today with several knowledgeable 
witnesses.
    Let me say before we begin this hearing, our focus should 
be to explore the proper role of State and Federal Governments 
in protecting innocent children and women and getting them out 
of unlawful and abusive situations. And I believe our witnesses 
will testify about the important role Federal and State 
officials play in this effort. Because innocent women and 
children are involved in this issue, they deserve careful and 
respectful consideration as we explore the best way to 
coordinate State and Federal responses to any problems that may 
exists.
    So, Mr. Chairman, I want to thank you for giving me this 
opportunity to say these few words.
    Senator Whitehouse. I would now like to recognize to make a 
statement to our Committee--I understand that the Majority 
Leader has considerable pressing business and that he will 
leave after he has made his statement, but we are very 
privileged and honored on the Judiciary Committee to have 
Majority Leader Harry Reid here with us today. Leader Reid grew 
up in Searchlight, Nevada, as the son of a hard-rock miner 
father and a mother who took in laundry. There, Leader Reid 
attended a one-room schoolhouse. In 1977, he was appointed 
Chairman of the Nevada Gaming Commission, where for 5 years he 
worked to clean up Nevada's gaming industry. Leader Reid 
continues to work every day on behalf of those who are less 
able to fight for themselves, and that is most evident by his 
attendance at this hearing today.
    For your statement, Leader Reid, I am honored to recognize 
you.

STATEMENT OF HON. HARRY REID, A U.S. SENATOR FROM THE STATE OF 
                             NEVADA

    Senator Reid. Thank you very much, Senator Whitehouse. I 
want the record to be spread with how much I appreciate Senator 
Leahy, the Chairman of this Committee, acknowledging that this 
is an issue that deserves attention, and he, with Senator 
Specter, authorizing this Committee to meet today under these 
circumstances. I am very happy that my friend, my neighbor from 
the State of Utah, Senator Hatch, is present.
    Senator Whitehouse, I especially acknowledge the work that 
you have done in preparing for this hearing. I have talked to 
your staff. They have devoted a significant amount of time to 
this hearing. Your background as being Attorney General and 
United States Attorney is a perfect fit for chairing this 
hearing, and I appreciate it very much. As I have expressed so 
many different times, I really admire your work ethic and the 
good work you do for the State of Rhode Island and our country.
    Mr. Chairman, I choose, because I have other 
responsibilities, not to come and testify before committees 
very often. I felt that this was essential that I be here. The 
lawless conduct of polygamous communities in the United States 
deserves national attention and Federal action. This hearing is 
an important milestone in the ongoing effort to curtail the 
pervasive criminal behavior.
    By coincidence, this hearing is being held on the 24th day 
of July, a day that is celebrated by Mormons around the world 
as Pioneer Day. This is a holiday that commemorates arrival of 
the Mormon pioneers to Great Salt Lake in 1847. We do honor to 
our pioneer ancestors by condemning those who have wrongfully 
cloaked themselves in the trappings of religion to obscure 
their true criminal purposes.
    For many years, these organizations received little 
attention from the rest of America. They isolated themselves to 
remote locations and required their members to cutoff contact 
with the outside world. In the West, I guess we have an 
attitude that says, ``Live and let live.'' So we try not to 
bother our neighbors, and we expect the same from them. But 
polygamists have taken advantage of this attitude to form a 
sophisticated, wealthy, and vast criminal organization that has 
gone largely unchecked by Government agencies for a long time.
    As you mentioned in my introduction, Mr. Chairman, during 
4-plus years of my life I spent as the Chairman of the Nevada 
Gaming Commission. Until that job, even though I had been 
Attorney General for the State and held many other political 
offices up to that time, organized crime was just a couple of 
words that meant nothing. It was something that took place in 
the dark alleys of New York and Chicago, and I did not think it 
had any bearing on the State of Nevada. But I came to realize 
that was not true.
    I was stunned to realize that the then-Aladdin Hotel was 
run by mobsters out of Detroit. I was stunned to learn that 
major hotels were being run out of a prison in Kansas City 
where a murderer by the name of Civella ran the operations of a 
number of major hotels and was so powerful, and the person we 
thought was running those hotels in a telephone conversation 
that the Federal Government was involved and we would never 
have known but for the Federal Government. There was wire 
surveillance going on. The man, the murderer in Kansas City, 
was asked a question by the person we thought was running that 
operation. He said, ``What should I do? ''--talking about the 
Stardust Hotel. And he said, ``Sell the son of a bitch.'' And 
the man sold the hotel.
    That is what organized crime is all about, Mr. Chairman. 
There are mob bosses. There were mob bosses. And that is what 
we were up against.
    I learned that they practiced extortion, embezzlement, 
fraud, public corruption, obstruction of justice, and witness 
tampering. I faced death threats. My wife found a bomb on our 
car. Those were not pleasant times in my recollection. I 
constantly worried about my family. We had to clear out my 
office on many occasions with threatening phone calls. We had 
to have people help take my kids to school. You get the 
picture.
    I am not here to tell anyone on this Committee, this 
Judiciary Committee, that polygamous communities in the United 
States are like they were in Las Vegas. But they are a form of 
organized crime. I repeat, I am not saying they are the same 
thing as the crime syndicates were in Las Vegas. But they 
engage in an ongoing pattern of serious crimes that we ignore 
at our peril.
    The most obvious crimes being committed in these 
communities are bigamy, child abuse; teen or pre-teen girls are 
forced to marry older men and bear their children as little 
girls. But the criminal activity that goes on in these places 
is far broader. Witnesses at this hearing will describe a web 
of criminal conduct that includes welfare fraud, tax evasion, 
massive corruption, and strong-arm tactics to maintain what 
they think is the status quo. These crimes are systematic, 
sophisticated, and are frequently carried out across State 
lines.
    Today, polygamists have spread from Utah and Arizona into 
many other States, including Nevada, Colorado, North Dakota, 
Missouri, New Mexico, and, of course, Texas. They have even 
expanded across international borders into Canada and Mexico. 
State authorities are on the front lines of this fight. Now, 
Mr. Chairman, I think we have to acknowledge on occasion that 
when you make a mistake, you have to acknowledge it. A few 
months ago, I was so frustrated that I made some statements 
that said the States were not doing enough. And maybe they are 
not, but they are doing their best. They have worked very, very 
hard, and I have apologized to individual Attorneys General 
personally. But it has also, as a result of this, opened my 
eyes to the fact that States need help.
    They are, I repeat, on the front lines of this fight, and 
it is a fight. I have developed great respect for their work, 
and today you are going to hear from hard-working State 
Attorneys General and their efforts. You are going to hear from 
United States Attorneys and their efforts.
    I have long believed that the Federal Government should 
play a larger role in this fight. The States lack the resources 
to adequately investigate these organizations, and the Federal 
Government's expertise in investigating ongoing criminal 
enterprises is needed. The Department of Justice should be 
helping States enforce their own laws, and it can beef up 
enforcement of Federal laws.
    Greg Brower, the United States Attorney from Nevada, my 
home, will testify today. Greg and his colleague from Utah, 
Brett Tolman, a State that I have great affection for--I 
graduated from Utah State University as a very young man. All 
five of my children have gone to universities--a university in 
Utah. So I have great respect for Brett Tolman, Greg's 
counterpart from Utah. They are going to discuss the growing 
Federal-State partnership to address these lawless communities.
    I have encouraged this Federal-State partnership, as I 
indicated, for some time. I wrote my first letter to then-
Attorney General Gonzales in 2006 to suggest a Federal task 
force on polygamy. He did not bother to answer my letter. In 
recent months, I have worked with Deputy Attorney General Mark 
Filip. I have spoken to Attorney General Mukasey.
    Deputy Attorney General Filip, a former Federal judge and a 
former law professor from the University of Chicago, has been 
so good to work with. I appreciate Attorney General Mukasey 
referring this work to Judge Filip, and he has assigned a 
senior Federal prosecutor to coordinate Federal action in this 
area. I again extend my appreciation to General Mukasey and 
Judge Filip.
    Yesterday, I introduced a bill to strengthen this Federal-
State partnership. The Victims of Polygamy Assistance Act would 
establish a task force under the supervision of the Deputy 
Attorney General to bring together the various agencies 
necessary to deal with the broad pattern of criminal behavior 
perpetrated by polygamists. The bill also authorizes grants to 
assist victims. Because these organizations routinely threaten, 
harass, and tamper with victims planning on testifying against 
them, it is necessary to provide targeted funds so law 
enforcement can protect them and, if necessary, shield their 
identity. These lawless organizations must be stopped, Mr. 
Chairman.
    I appreciate the efforts of this Committee to help shed 
light on this growing problem, and I applaud our witnesses: Mr. 
Singular for writing this book, which I thought was very, very 
enlightening to me and many people in our country; these brave 
witnesses who are coming, who have been involved in these 
sects; and all others who stand up against powerful criminal 
forces.
    I would be happy, Mr. Chairman, to answer any questions if 
the panel has any.
    Senator Whitehouse. On behalf of the Committee, Leader 
Reid, we very much appreciate your presence here in the 
Committee. We very much appreciate your statement, and we very 
much appreciate your leadership on this issue.
    May I call up the second panel of our law enforcement 
witnesses. Please remain standing to be sworn.
    Please stand and raise your right hand. Do you affirm that 
the testimony you are about to give before the Committee will 
be the truth, the whole truth, and nothing but the truth, so 
help you God?
    Mr. Brower. I do.
    Mr. Tolman. I do.
    Mr. Goddard. I do.
    Mr. Abbott. I do.
    Senator Whitehouse. Please be seated.
    We are very pleased to have a very distinguished group of 
law enforcement witnesses with us today. What I would like to 
do is to introduce them as a group and then take their 
statements in sequence and then have questions to the group in 
general.
    Nevada U.S. Attorney Gregory Brower. Greg Brower has been 
the U.S. Attorney since December 1007. Before becoming U.S. 
Attorney, Mr. Brower served as General Counsel to the 
Government Printing Office and as the GPO's Inspector General. 
Mr. Brower previously served at the U.S. Department of Justice 
as legislative counsel in the Executive Office for U.S. 
Attorneys. His prior public service also includes being twice 
elected to the Nevada State Legislature and service in the U.S. 
Navy as a surface warfare officer. Mr. Brower received a 
bachelor's degree from the University of California, Berkeley, 
and a law degree from George Washington University.
    Utah U.S. Attorney Brett Tolman. Brett Tolman has been U.S. 
Attorney for the District of Utah since 2006. Before that, he 
worked for Senators Hatch and Specter on this Judiciary 
Committee. We are pleased to welcome him back.
    Mr. Tolman. Thank you.
    Senator Whitehouse. He also served as an Assistant U.S. 
Attorney in the District of Utah. Mr. Tolman clerked for U.S. 
District Chief Judge Dee Benson from 1998 to 2000 and received 
his law degree cum laude from Brigham Young University in 1998 
and a B.A. from Brigham Young University in 1994.
    Arizona Attorney General Terry Goddard has been Arizona's 
Attorney General since 2003. Before becoming Attorney General, 
Mr. Goddard was elected mayor of Phoenix four times and was 
president of the National League of Cities in 1989. Attorney 
General Goddard also served as the Arizona State Director for 
the U.S. Department of Housing and Urban Development. Attorney 
General Goddard received his B.A. in American history from 
Harvard and his J.D. from Arizona State University. He served 
an active-duty tour in the Navy and retired as a commander 
after 27 years in our Naval Reserves.
    Texas Attorney General Greg Abbott has been the Texas 
Attorney General since 2002. Attorney General Abbott's career 
in public service began in Houston where he served as a State 
trial judge. In 1995, then-Governor George W. Bush appointed 
Attorney General Abbott to the Texas Supreme Court, where he 
served until becoming Attorney General. Mr. Abbott graduated 
from Vanderbilt Law School and the University of Texas.
    Again, we are very pleased to have so distinguished a panel 
before us, and I would ask United States Attorney Brower to 
begin with his statement.

    STATEMENT OF GREGORY A. BROWER, UNITED STATES ATTORNEY, 
             DISTRICT OF NEVADA, LAS VEGAS, NEVADA

    Mr. Brower. Thank you, Senator Whitehouse, members of the 
Committee. Good morning. I am Greg Brower, U.S. Attorney--
    Senator Whitehouse. Turn your microphone on.
    Mr. Brower. Excuse me. We were just talking about the fact 
that witnesses always forget to do that, and here I did it 
myself.
    Senator Whitehouse. There you go.
    Mr. Brower. Let me start over. Senator Whitehouse, members 
of the Committee, I am Greg Brower, U.S. Attorney, District of 
Nevada. On behalf of the Department of Justice, I want to thank 
the Committee and the Majority Leader for this hearing today. 
My colleague from Utah, Brett Tolman, and I are very pleased to 
appear before you today to provide the perspective of the 
Department of Justice and Federal law enforcement in working 
with issues arising from polygamist communities. My testimony 
will provide an overview of the tools and resources available 
to Federal law enforcement to address these issues. Mr. Tolman 
will follow with a more detailed discussion regarding specific 
efforts being made, primarily in his State and his district.
    At the outset, let me emphasize what I am sure is obvious. 
As Federal prosecutors, our oath is to support and defend the 
Constitution. The very first right enshrined in the Bill of 
Rights is the right to the free exercise of religion. The U.S. 
Department of Justice does not target anyone for criminal 
investigation or prosecution--whether individuals or groups--
based upon their religious beliefs.
    Instead, the Department's mission is to target Federal 
criminal conduct wherever it occurs, regardless of the 
religious beliefs, if any, of the criminal. The seminal Supreme 
Court case on the interplay between laws of general application 
and the Free Exercise Clause is Employment Division of Oregon 
v. Smith. In that 1990 decision, the Supreme Court rightly held 
that when a law is of general application and not targeted at a 
particular religious practice, the Free Exercise Clause is not 
implicated, even if the incidental effect of the law is to 
affect some people's practice of their religion. The issue of 
polygamy illustrates this point. The practice is illegal in all 
50 States, regardless of whether a defendant enters a plural 
marriage for religious reasons or otherwise. And with respect 
to the practice of polygamy itself, I should emphasize that it 
is usually a matter of State criminal law, and not Federal law.
    Over the history of our country, the laws defining and 
defending the institution of marriage have been by design 
within the province of the States. Polygamy is illegal in all 
50 States because of the individual criminal codes of those 50 
States, and not because of any Federal criminal provision. 
While polygamy is a State crime, the Department embraces 
partnerships with State and local law enforcement through 
information sharing, coordination, and other types of 
assistance, and will investigate and prosecute Federal 
violations where found.
    Thus, ultimately, the role of Federal law enforcement in 
dealing with issues relating to polygamist communities is the 
same role as in any other context--to investigate and prosecute 
Federal crimes wherever they occur.
    Numerous Federal laws are potentially implicated by the 
conduct in which some members of polygamist communities may be 
engaged, and Federal authorities stand ready to investigate and 
prosecute as circumstances warrant. Title 26 tax crimes are 
investigated by the IRS Criminal Investigations and are 
prosecuted by U.S. Attorney's Offices and the Tax Division at 
Justice. The FBI has responsibility for investigating a host of 
other white-collar offenses, such as mail, wire, and financial 
institution fraud, fraud involving Federal programs, false 
claims cases, health care fraud, and computer crimes. The U.S. 
Secret Service has broad authority to investigate identity 
theft and credit card fraud. The U.S. Postal Inspection Service 
investigates crimes involving the mails. The United States 
Marshals Service has and will continue to aid these cases by 
tracking and capturing fugitives as necessary.
    The FBI and the ATF have broad authority to investigate 
violent Federal crimes, including crimes involving weapons and 
explosives. The FBI also has jurisdiction over Federal criminal 
civil rights violations. Indeed, it is a felony to interfere 
with another's free exercise of religion by force or threats of 
force, under 18 U.S.C. Section 247. That section also covers 
attacks on churches or other religious property. Finally, 
Federal criminal law provides for substantial penalties for 
arson and for threats communicated by mail, telephone, or 
Internet.
    In addition to the laws just noted, I should emphasize that 
Federal criminal law affords very powerful tools to deal with 
sexual predators of children. Title 18, U.S. Code, Section 
2422(b), makes it a felony for a defendant to use the mail or a 
facility of interstate or foreign commerce, such as telephone 
lines or the Internet, to lure a child under age 18 to engage 
in criminal sexual activity. Transporting a child across State 
lines for the same purpose is also illegal under 18 U.S.C. 
Section 2423(a).
    Both crimes carry a 10-year mandatory minimum sentence, but 
they are punishable up to life imprisonment. Even using the 
Internet or other means of interstate communication to transmit 
identifying information about a young child--for example, name, 
address, telephone number, e-mail address--for sexual purposes 
is against Federal law. That crime carries a potential 5-year 
penalty.
    The Department is deeply committed to investigating and 
prosecuting crimes against children, working closely with State 
and local prosecutors and law enforcement agencies to enhance 
our efforts. To further this goal, in 2006 the Department 
developed Project Safe Childhood. The strategic goal of Project 
Safe Childhood is to maximize the number of leads generated and 
investigated by Federal, State, and local law enforcement, and 
then funnel those cases as appropriate to Federal prosecution, 
where Federal nationwide investigative tools can be employed 
and Federal felony mandatory minimum sentences can be sought.
    Senator Whitehouse. Mr. Brower?
    Mr. Brower. Yes, sir?
    Senator Whitehouse. May I ask you to sum up your testimony 
so that we can stay within our time guidelines. Your full 
statement will be made a matter of record. but if you could 
move to conclude, I would appreciate it because of our time 
constraints.
    Mr. Brower. Thank you, Senator.
    In summary, to the extent that members of polygamist 
communities are committing Federal crimes, whether white-collar 
frauds, crimes against children, or other crimes, the 
Department is committed to working with State and local law 
enforcement authorities in the relevant jurisdictions to ensure 
that those crimes are aggressively investigated and prosecuted.
    Thank you.
    [The prepared statement of Mr. Brower appears as a 
submission for the record.]
    Senator Whitehouse. Thank you very much.
    United States Attorney Tolman?

STATEMENT OF BRETT TOLMAN, UNITED STATES ATTORNEY, DISTRICT OF 
                   UTAH, SALT LAKE CITY, UTAH

    Mr. Tolman. It is an honor to be here. I will say it is far 
different being on this side of the Committee than it is behind 
you and drafting the questions.
    Senator Whitehouse. Wait until Senator Hatch starts asking 
you questions. It is going to get worse.
    Senator Hatch. I can hardly wait.
    [Laughter.]
    Mr. Tolman. Senator Whitehouse and distinguished members of 
the Committee, I am Brett Tolman, the United States Attorney 
for the District of Utah. The title of this hearing is ``Crimes 
Associated with Polygamy: The Need for a Coordinated State and 
Federal Response.'' I am here to testify that Utah has a proud 
history of a coordinated State and Federal response. For years 
now, my office and various agencies such as the FBI, DEA, IRS, 
the Department of Health and Human Services, the Department of 
Labor, and others have worked with State and local agencies to 
investigate allegations that crimes such as sexual exploitation 
of children, fraud, structuring financial transactions to avoid 
Bank Secrecy Act reporting requirements, drug trafficking, and 
violent crimes were being committed by members of various 
polygamist groups in Utah. In fact, a large reason why several 
States and even other countries have confronted the issues 
surrounding polygamist communities is because of the great 
investigative and prosecutive efforts in Utah.
    The aggressive prosecutions by the Utah Attorney General's 
Office, various county attorney offices, and the U.S. 
Attorney's Offices have pushed some members of polygamist 
groups from Utah to other States and countries, resulting in 
Utah's interstate coordination efforts.
    Let me now speak to how the existing coordinated efforts 
have been successful. It is public knowledge that there are 
ongoing Federal investigations involving potential Federal 
criminal activity in polygamist communities. On April 10, 2008, 
the FBI and the United States Attorney's Office for the 
Northern District of Texas announced that a Federal search 
warrant had been executed at the YFZ Ranch in Eldorado, Texas. 
At that time, they also stated that the application and 
affidavit were under seal and that no further comment could be 
made because of the pending investigation.
    I can assure the Committee that other Federal efforts are 
ongoing, in my district and in others. Without going into the 
details of non-public past or present investigations, such 
efforts have involved the full cooperation, coordination, and 
communication of multiple Federal, State, and local agencies, 
including, but not limited to, the FBI in Utah, Nevada, and 
Dallas, Texas, the Arizona Attorney General's Office, the Utah 
Attorney General's Office, the United States Attorney's Offices 
in Arizona, Utah, Nevada, and the Northern District of Texas, 
county authorities from Mohave County, Arizona, and Washington 
County, Utah, and other Federal agencies such as IRS Criminal 
Investigations and the Bureau of Alcohol, Tobacco, Firearms and 
Explosives.
    Just recently, on June 11, 2008, I personally met with many 
high-level State and Federal law enforcement officials from 
Utah, Arizona, Texas, and Nevada to discuss these issues. 
United States Attorneys from throughout the Western region of 
this country were present. The group agreed that the Federal, 
State, and local prosecuting and investigating agencies have a 
proven and effective working relationship, but that we can do a 
better job of sharing information.
    We shared information at this meeting and have continued to 
do so since in a way that is atypical of any other group or 
task force that I have been a part of. The group has been 
communicating by e-mail, and a Special Interest Group on Law 
Enforcement On-Line website and central data base for 
information sharing have been created. We have already 
experienced and expect to continue to experience great results 
from these new avenues of communication.
    Some have suggested creating a task force to deal 
specifically with these polygamist issues. With respect to 
crimes associated with polygamist groups, however, I believe 
that there is already substantial communication and 
coordination among Federal, State, and local offices, indeed, 
just as much as there would be were a formal task force in 
place. Moreover, although task forces are an effective 
mechanism to combat many types of criminal conduct, they just 
may not be a good fit in this particular context. Polygamist 
communities are highly self-contained and insular, which makes 
them difficult for law enforcement to infiltrate. Moreover, 
whether it is due to loyalty, sincere religious belief, or 
coercion, their members are frequently uncooperative with law 
enforcement.
    In large measure, when past investigations have stalled, it 
has been a result of these witness issues. In this context, a 
task force may be too blunt an instrument to accomplish an 
effective investigation, and subtler, more covert methods may 
be more profitably employed.
    Specifically, my office and others have investigated in the 
recent past the case of Warren Jeffs, the leader of a 
polygamist sect in Utah.
    Jeffs was charged by Utah with being an accomplice to rape, 
for using his religious influence over his followers to coerce 
a 14-year-old girl into marriage to her 19-year-old cousin. 
Jeffs went on the run and was missing for 2 years. The United 
States Attorney's Offices for the Districts of Utah and Arizona 
brought Federal unlawful flight to avoid prosecution charges. A 
Federal warrant was obtained.
    Jeffs was ultimately placed on the FBI's Ten Most Wanted 
Fugitives list, and after a nationwide manhunt, he was 
eventually captured in Nevada and returned to face justice in 
Utah. He was convicted and is serving two consecutive terms of 
5 years to life. He still presently faces charges in Arizona 
relating to the alleged marriages of underage girls. After he 
faces State charges in Arizona, Jeffs will be returned to Utah, 
where he will be prosecuted by the U.S. Attorney's for his 
unlawful flight. And as the Committee knows, just recently--and 
we have the Attorney General here from Texas--they recently 
announced further charges against Mr. Jeffs and several others 
relating to the exploitation of children.
    Senator Whitehouse. Mr. Tolman, could you wrap up? The time 
has expired.
    Mr. Tolman. Yes. In summary, great efforts have been made. 
We look forward to continuing our cooperation and coordination 
with local, State, and Federal officials to make sure that we 
eradicate criminal behavior that is occurring in these 
communities.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Tolman appears as a 
submission for the record.]
    Senator Whitehouse. Thank you, Mr. Tolman.
    Attorney General Goddard, good to have you with us.

STATEMENT OF TERRY GODDARD, ATTORNEY GENERAL, STATE OF ARIZONA, 
                        PHOENIX, ARIZONA

    Mr. Goddard. Thank you, Mr. Chairman, distinguished members 
of the Committee. It is a great pleasure to be here. My name is 
Terry Goddard. I am the Attorney General of Arizona, and I 
greatly appreciate the Committee's time and attention to this 
issue. I have some extended remarks, which with your 
permission, Mr. Chairman, I will submit for the record.
    Senator Whitehouse. They will be made a part of the record.
    Mr. Goddard. I will make every effort to summarize them 
here today.
    The investigation and prosecution of crimes in communities 
controlled specifically by the Fundamentalist Church of Jesus 
Christ of Latter-Day Saints, or the FLDS, present a unique set 
of challenges that I applaud the Committee for looking at 
today. These challenges illustrate the need for enhanced local-
Federal cooperation and additional resources. I want to thank 
Senator Reid for his leadership on this issue and the proposed 
legislation, which I first saw yesterday. But I would submit it 
is exactly the kind of cooperation and support for not only law 
enforcement but social service support agencies which has been 
needed throughout the Western United States in dealing with 
these issues.
    At the outset, it probably should not be necessary, but I 
would like to make two things clear. First, I am talking about 
the FLDS, not the Church of Jesus Christ of Latter-Day Saints, 
commonly known as ``the Mormon Church.'' Unfortunately, there 
still are confusions occasionally, although that should not be 
an issue before this Committee. Second, the focus of the work 
done in my office in Arizona and in the office of Attorney 
General Mark Shurtleff in Utah has focused on Hildale, Utah, 
and Colorado City, Arizona. It is not about religion, not about 
culture, and not about lifestyle. It is about protecting women 
and children from crime, from domestic abuse and sexual 
violence; combating fraud and public corruption; enforcing 
civil rights laws; upholding peace officer standards; and 
ensuring that the rule of law is applied.
    For the past 5 years, my office has taken a systematic 
approach to restoring the rule of law to a community that in 
many respects has been operating outside the rule of law for 
almost a century. I have been intent on not repeating the 
heavy-handed mistakes of the past. Arizona badly executed a 
police raid in 1953 known as the ``Short Creek raid'' that took 
most of the children in the community into custody and made 
them wards of the State. And it had three long-term negative 
effects:
    First, afterwards, governmental authorities were reluctant 
to do anything, to pay any attention to the area of Short 
Creek, soon renamed Colorado City, and Hildale in Utah.
    Second, the residents of these communities became highly 
suspicious of Government at all levels. We found that victims 
of abuse feared the State more than their abuser.
    And, third, the leaders of the FLDS Church used the first 
two to increase their autocratic authority over their 
followers.
    In 2003, Utah Attorney General Mark Shurtleff and I formed 
a partnership to undertake and coordinate civil and criminal 
investigations and provide a safety net for the victims of 
child abuse and domestic violence in Colorado City and Hildale. 
These communities have an estimated 10,000 people ore more, and 
they are geographically isolated and strictly segregated from 
outside influences.
    Over the past 5 years, we have expanded the partnership in 
Arizona and Utah into a safety net that includes State and 
local law enforcement as well as local service agencies, 
advocacy groups, and members of the community. We have held 
monthly safety net meetings and established a permanent 
physical presence for law enforcement and social services in 
Colorado City.
    Now, outreach and support in these communities has been 
facing unique obstacles. They are very remote. They are, as has 
been noted already, highly centralized and thought is 
controlled by the leaders. They have very strong traditions, 
and they have a great suspicion of governmental agencies. So 
overcoming some of this resistance was a big part of our agenda 
over the past 5 years.
    I am pleased to say that the safety net has provided 
support to over 1,200 individuals, and the number seems to be 
increasing every day as people come forward to report needs and 
to report child abuse instances--something we saw almost none 
of 5 years ago.
    I would like to summarize a couple of very specific areas 
where we think Federal assistance would be particularly useful.
    As has been noted, the FLDS operates in two foreign 
countries and many States in the Western United States. These 
multi-State operations are uniquely susceptible to Federal 
investigation and information sharing. The businesses operated 
by this particular organization, by the FLDS, are beyond the 
scope of many State and local law enforcement agencies, but are 
uniquely susceptible to Federal investigation.
    Second, we believe civil rights violations have been 
occurring in these communities. In 2005, I addressed a letter 
to the Department of Justice requesting help specifically in 
the Marshals Office in Colorado City. We believe this 
institution of the State, of the city of Colorado City, was, in 
fact, being used to exile young men from the community, to 
enforce the rules laid down by the FLDS, and in some cases to 
actually throw individual families out of their houses. This 
kind of deprivate of cv I believe is, again, outside of the 
jurisdiction of individual States and uniquely within the 
Federal prosecution ambit.
    We have found extensive--and U.S. Attorney Tolman has 
referred to the huge amount of information which has been 
obtained, both in the Escalade that Warren Jeffs was found 
riding in and in the recent seizures in Texas. We are anxious 
to see that information, and any kind of sharing with Federal 
authorities will be greatly appreciated. But it is a huge 
volume of information, and the cataloguing and evaluation of it 
well exceeds our local capacity. So we would appreciate help in 
that regard.
    Finally, it has been far too long that Warren Jeffs and his 
FLDS predecessors, as well as leaders of some other polygamist 
organizations, have ignored and violated the law. Utah and 
Arizona are working to restore that rule of law in Colorado 
City and Hildale and to aid victims of abuse. What has taken a 
century to build will not change overnight, but step by step we 
are making important changes. A great deal of work still lies 
ahead of us, and it is enhanced local, State, and Federal 
cooperation, and the additional resources promised in the 
proposed legislation will make a big difference in 
investigating and prosecuting crimes and preventing future 
abuse in these communities.
    I want to thank the Committee for their consideration and 
the chance to be here today.
    [The prepared statement of Mr. Goddard appears as a 
submission for the record.]
    Senator Whitehouse. Thank you, Attorney General Goddard.
    And now we turn to our final witness on this panel, the 
Attorney General of Texas, Greg Abbott.

  STATEMENT OF GREG ABBOTT, ATTORNEY GENERAL, STATE OF TEXAS, 
                         AUSTIN, TEXAS

    Mr. Abbott. Thank you, Mr. Chairman, and also thanks to all 
the Committee members for convening this very important 
hearing.
    If I could at the outset explain, I can tell maybe there 
was some question why I did not stand to take the oath. I am in 
a wheelchair, which is why I did not stand. I was out jogging, 
and a big tree fell on me one day, crushing vertebrae into my 
spinal cord, leaving me paralyzed. Otherwise, I would have been 
proud to stand.
    But I want to appear here to reaffirm the benefits that can 
be achieved by Federal and State cooperation and coordination 
in criminal investigations and prosecutions of crimes committed 
by members of the FLDS.
    As the Committee is aware, my office is engaged in pending 
prosecutions of certain FLDS members. Two days ago, a grand 
jury in Schleicher County, Texas, returned seven indictments 
against six suspects. All suspects are associated with the YFZ 
compound near Eldorado, Texas.
    Among the six suspects is Warren Jeffs, who is charged with 
sexually assaulting a child, a first-degree felony.
    Four additional suspects are charged with sexually 
assaulting young girls under the age of 17. One of those 
suspects is also charged with felony bigamy.
    A separate suspect has been indicted on three counts of 
failure to report child abuse.
    The indictments issued on Tuesday are part of an ongoing 
criminal investigation. This week's indictments reflect a 
cooperative effort between the Texas Office of the Attorney 
General's Office, the Texas Department of Public Safety, the 
Texas Rangers, the 51st Judicial District Attorney's Office in 
Texas, as well as the United States Attorney for the Northern 
District of Texas and the Federal Bureau of Investigation. My 
office has also maintained open lines of communication with the 
Attorneys General Offices in Arizona and Utah.
    We have seen firsthand the vital importance of 
communication and cooperation among State and Federal 
authorities.
    The suspects in this case are part of an organization with 
roots in many States and many countries. To state the obvious, 
it is a big challenge for State authorities, acting alone, to 
contain or prevent criminal activity that crosses multiple 
States, and even national borders.
    According to press reports, Warren Jeffs ordered that the 
YFZ Ranch in Texas be purchased just one month after Arizona 
authorities prosecuted an FLDS member for an unlawful sexual 
relationship with a 16-year-old girl. This frames an important 
issue for this Committee to consider. When one State enforces 
its law, the FLDS leaders simply move their operations to 
another State.
    Recent press reports indicated that, after the joint 
crackdown by Utah and Arizona, FLDS members began moving to 
southern Nevada and, of course, to Texas.
    This group moves seamlessly from State to State, location 
to location, and has the infrastructure necessary to thwart law 
enforcement. Even Warren Jeffs, who has achieved international 
notoriety, managed to hide from authorities for over a year, 
and he was on the FBI's Most Wanted list. This leads me to two 
very important points:
    First, if individuals are charged with crimes, and if those 
individuals flee the jurisdiction by the time those charges are 
filed, State authorities could benefit from help by the FBI, 
the U.S. Marshals, and U.S. Attorneys across the country in 
locating and arresting those individuals.
    Second, and from a bigger-picture perspective, we have seen 
that the FLDS is highly mobile and willing to move from one 
location to the next in an apparent effort to avoid State 
authorities. Thus, it is critical that Federal authorities 
focus on the FLDS and devote the resources necessary to 
prosecute criminal wrongdoing that is uncovered--whether the 
evidence leads to Texas, Nevada, Arizona, Utah, or some other 
place.
    Although the alleged criminal conduct currently being 
prosecuted by our office involves crimes that traditionally 
fall within State authorities' purview, there are important 
issues for Federal prosecutors to consider. Given the nature of 
the FLDS, and the nature of the crimes that may have been 
committed, there are a number of areas in which cooperation and 
coordination could be particularly effective, and I will 
outline these very briefly.
    Consideration should be given to the full application of 
Federal laws, such as the Mann Act, to prosecute crimes 
committed against underage girls born or placed into the FLDS, 
as part of the systematic victimization of young women within 
the sect.
    Consideration should also be given to the full application 
of Federal laws to investigate potential white-collar crimes by 
FLDS members and their leadership--activity that spans State 
borders and which Federal law enforcement is experienced and 
qualified to evaluate and prosecute.
    There should also be cooperation and coordination among 
State and Federal law enforcement on the collection, review, 
evaluation, and sharing of evidence that has been gathered 
throughout the States and Federal Government.
    Cooperation and coordination are also needed to ensure that 
if FLDS members are charged with crimes, Federal and State 
resources will be dedicated to locating and arresting those 
defendants.
    And, finally, I will mention that cooperation and 
coordination is warranted to assist the victims of crimes by 
FLDS members, including those victims who have been subjected 
to sexual or other forms of abuse.
    These are just a few ideas for the Committee to consider. 
This Committee and the Department of Justice can be assured 
that the State of Texas will continue to work closely and 
cooperatively with Federal authorities to hold accountable 
those who have broken the law. I can also assure the Committee 
that there has already been a good deal of cooperation and 
coordination among State and Federal law enforcement officials 
in Texas.
    Thank you very much.
    [The prepared statement of Mr. Abbott appears as a 
submission for the record.]
    Senator Whitehouse. Thank you, Attorney General Abbott.
    Once again, let me say what a privilege it is for this 
Committee to have the law enforcement leaders of Federal and 
State law enforcement from four separate States all here at the 
table before us to discuss this issue. Having sat in those 
seats myself, I am particularly interested in the questions of 
coordination. In my time as United States Attorney, a great 
deal of effort was given to coordinating the efforts of 
different law enforcement agencies. Unfortunately, there was a 
fair amount of stovepiping at the time, and to make sure that 
everybody was operating, particularly when they were in the 
same area, in tandem was a significant--I guess you would call 
it air traffic control-type operation. And it strikes me here 
that that is certainly merited. I have heard people mention tax 
offenses, which the Internal Revenue Service would investigate; 
mail fraud offenses, which Postal Inspectors would investigate; 
interstate violent and civil rights crimes, which the FBI would 
investigate; identity theft and credit card fraud, which the 
Secret Service would investigate; if there are weapons offenses 
related, the Bureau of Alcohol, Tobacco, and Firearms would 
investigate; and then, of course, there are statutory rape, 
child molestation, assault, violent crime, and all sorts of 
State-level criminal offenses that are involved. And there may 
be other ways to do it, but in my experience, when you are 
trying to organize something like this, the U.S. Attorney 
either called the agencies together, established a task force 
that spoke to each other, and everybody kept track of what 
everybody was doing; or at a less aggressive level, designated 
a point of contact within the U.S. Attorney's Office for all 
activities related to that particular type of investigation so 
that, A, the U.S. Attorney had somebody accountable in their 
office to keep track of and, B, everybody in the office knew 
what was going on and this person became sort of a de facto 
coordinator for the agencies.
    Do you have either set-up in your U.S. Attorney's Offices 
with respect to this issue? Or how are you organizing it? And 
when I say ``task force,'' I mean an invisible one that is in 
the U.S. Attorney's Office coordinating and behind the scenes. 
I do not mean a massive, as you say, blunt instrument of raid 
jackets going out and doing things. We had very complex task 
forces that threaded out one agent to try to infiltrate into a 
gang, and then he would come back and report. And then we would 
move another. It was done in a very covert way, but as a task 
force coordinated at the management level.
    Mr. Brower. Senator, if I might address that first, I can 
tell you that in my 6 months on the job in Nevada, I have been 
very impressed with the extent of State, Federal, and local 
cooperation on a variety of fronts in my district; and in the 
last couple of months that we have been discussing this issue, 
I can tell you that I have been very impressed with the efforts 
by those at this table and our respective offices and other 
offices on coordinating on this particular issue.
    I have tasked in my district my criminal chief to be the 
point of contact. Mr. Tolman mentioned a meeting that took 
place in my office a couple of months ago. Discussions have 
followed, cooperation has followed, and I think we are off to a 
good start.
    Mr. Tolman. Senator, in my office there is, as you say, an 
invisible task force, and perhaps that is an appropriate 
analogy. My concern has always been that the announcement, the 
mere announcement of a task force dedicated solely to target 
one individual group can often defeat the very purpose that you 
are establishing the task force. You give notice to those 
individuals that you are targeting them. And we have seen 
already--
    Senator Whitehouse. I am afraid today's hearing may blow 
that.
    [Laughter.]
    Mr. Tolman. And we have seen already with the announcement 
withdrawal of many that have been willing to come outside of 
those communities and to work with us. And we hope that it is 
not jeopardized because, as you know, the only way to get to 
some of the criminal behavior of these groups is true 
infiltrating the group or turning an informant into a 
cooperating witness. And I have four and will have a fifth 
person that is at the ready in my office to tackle certain 
crimes and investigative leads that may occur in these 
polygamous communities. I have one individual that is full-time 
managing the communication and coordination of this issue.
    Senator Whitehouse. And to the Attorneys General, can you 
let the Committee know, how is this being coordinated either 
within the National Association of Attorneys General or, if it 
is a more regional issue, within CWAG, the Western Attorneys 
General organization?
    Mr. Goddard. Mr. Chairman, members of the Committee, if I 
could start on that and defer then to Attorney General Abbott. 
As he said in his remarks--and I would have emphasized with 
additional time--this is a conspiracy, this is an organized 
crime, as has been referred to, which has profited from hiding 
behind borders. They have used jurisdictional barriers to their 
great advantage. There used to be a joke that the large houses 
in Colorado City and Hildale were actually on rails, and that 
if it got hot in Utah, they could move to Arizona; and if it 
got hotter in Arizona, literally, legally speaking, they could 
move it back to Utah.
    That is not true, I hasten to say; they are on solid 
foundations. But, nonetheless, the jurisdictional ability to 
slip away when it was particularly difficult in one State, to 
find another that was not paying attention, unfortunately has 
been a characteristic of this criminal activity.
    In addition, in the States, neither Attorney General Abbott 
nor I have original jurisdiction on the crimes that are being 
charged. That is our county attorneys, and I want to give great 
credit to Matt Smith, the County Attorney in Mohave County, 
Arizona, who has been the prosecuting agent. He turned around 
years of inattention in his term as the County Attorney there 
and has made a huge difference in bringing, I believe, eight 
cases now against people for sexual abuse of minors.
    Senator Whitehouse. Since my time is running out, may I ask 
if Attorney General Abbott would like to add something.
    Mr. Goddard. So we need better coordination, Mr. Chairman.
    Senator Whitehouse. Thank you.
    Mr. Abbott. I will tell you that we have benefited from the 
expertise and experience of both the Attorney General for 
Arizona and the Attorney General for Utah as we have gone about 
the process of the investigation and now the prosecution of 
these crimes in Texas. I also want to add, though, that we have 
benefited from ongoing cooperation and coordination with the 
U.S. Attorney for the Northern District of Texas.
    Senator Whitehouse. Very good. At this point I would be 
honored to recognize the very distinguished Senator from Utah, 
Orrin Hatch, who has served with distinction as the Chairman of 
this Committee. So I am sort of rather new in this chair 
compared to the vast experience that he brings to it. So it is 
a great honor to have him have the chance to inquire. Senator 
Hatch.
    Senator Hatch. Well, thank you, Mr. Chairman, and I think 
you are doing a very good job as usual. You are very bright, 
and you have vast experience in these areas.
    Let me start with you, Mr. Tolman. In your statement you 
said that a Federal task force that deals specifically with 
polygamous groups ``may be too blunt an instrument to 
accomplish an effective investigation, and subtler and more 
covert methods may be more profitably employed.''
    Just two questions. What do you mean by ``too blunt an 
instrument''? And could you please explain what other methods 
might be effective in dealing with these very serious issues?
    Mr. Tolman. We had established task forces previously. In 
2003 and 2005, attempts were made to organize somewhat of a 
formal task force. They are cumbersome. When attempting to 
target a specific group where you need informants on the inside 
or you need an ability to infiltrate the group, it is something 
that unless you have been to these cities and observed the 
citizens of these particularly polygamous groups, it is 
remarkable. If an outsider were to drive through, they are 
immediately recognized by all that are residents in this area. 
They know who are within their community and who are without. 
Because of that, it is a great challenge to publicly target a 
specific group.
    What is needed is constant communication and sharing of 
evidence and information, not only now within the State that 
they reside but now in multiple States and with international 
authorities. I am proud to say, Senator, that we now have more 
communication and information sharing in this area than I have 
seen in any of the successful task forces that are out there 
presently.
    Senator Hatch. Well, thank you. We are so pleased to have 
all of you here. It means a lot to us to help us understand 
these things better.
    I do not countenance criminal activity in any way, and I 
know you do not either. But let me ask you this, Mr. Brower: I 
greatly appreciate the part of your testimony where you state, 
``The United States Department of Justice does not target 
anyone for criminal investigation or prosecution--whether 
individuals or groups--based upon their religious beliefs.'' 
Now, you further stated that, ``The Department's mission is to 
target Federal criminal conduct wherever it occurs...''
    Now, I think it is vitally important that these statements 
be highlighted. Are you aware of any current investigations in 
which religious organizations have been targeted simply based 
on their religious beliefs?
    Mr. Brower. I am not, Senator. That is an excellent 
question, of course, and as I mentioned in my statement, the 
Department simply does not engage in such targeting.
    Senator Hatch. Well, thank you.
    Mr. Brower. It is just not important to the Department 
whether a criminal wrongdoer has a religious affiliation or 
not. It is just not relevant.
    Senator Hatch. Thank you.
    Mr. Tolman, just a short answer on this if you can. There 
appears to be a perception by some that certain Western States 
are simply ignoring possible criminal violations occurring in 
polygamous groups. I am certainly aware that many States, 
including Utah, fairly pursue the appropriate investigations of 
criminal activity.
    Now, isn't it accurate that law enforcement entities in 
Utah and other States have vigorously investigated credible 
accusations related to this topic?
    Mr. Tolman. Senator, let me, if I may, describe to you what 
investigations have been--what leads have been followed upon 
and what investigations have been conducted just by the FBI and 
my office.
    Senator Hatch. If you could do it quickly, I would 
appreciate it.
    Mr. Tolman. Since 2004, we have investigated and followed 
up leads involving racketeering charges, illegal wiretaps, and 
possible civil rights violations by the Hildale/Colorado City 
marshals; trafficking in underage girls for the purposes of 
forced arranged marriage to older men or otherwise known as the 
Mann Act violations; unlawful flight to avoid prosecution; 
stockpiling of illegal weapons and explosives, including 
machine guns and .50-caliber sniper rifles. We investigated 
allegations of the murders of infant children and improper 
disposal of their remains; various forms of Government program 
fraud, including Medicaid and food stamp program fraud, as well 
as false claims for reimbursement for child care expenses. We 
have investigated and worked with partners for violations of 
child labor laws. We have investigated sexual misconduct by 
Warren Jeffs and other leads of the FLDS sect, including 
illegal sexual acts perpetrated against children. We have 
investigated tax fraud. The IRS has investigated a number of 
other types of fraud involving tax schemes, including business 
fraud and individual fraud. And we have investigated corporate 
and business fraud allegations in the southern part of Utah.
    That is just since 2004. It is to me one of the areas in 
which we work most diligently to followup on these leads. But, 
last, Senator, may I add that it is significant and important 
that we remember that probable cause must be established before 
we can present any investigative leads to the grand jury to 
seek charges. And our finding is that often without cooperating 
witnesses or someone from the inside, probable cause is 
difficult to maintain, and I am reluctant to act without that 
standard of the Constitution met.
    Senator Hatch. Well, thank you. The Chairman has graciously 
allotted me a little more time to ask a couple of other 
questions since my State has been involved to a degree.
    Mr. Goddard, you indicated--and I appreciate your 
testimony. I appreciate the work that you have done and that 
you are doing in Arizona. But you stated that the Church of 
Jesus Christ of Latter-Day Saints, commonly nicknamed ``the 
Mormon Church,'' should not be confused with the FLDS. Could 
you explain what that means?
    Mr. Goddard. Mr. Chairman, Senator Hatch, I would be 
delighted. And the confusion has persisted in the media, and I 
think it is highly unfortunate.
    Senator Hatch. It is very offensive to me and to Senator 
Reid and every one of us who belong to the Church of Jesus 
Christ of Latter-Day Saints.
    Mr. Goddard. Obviously, the break that took place at the 
beginning of the last century, in the 1900s, when polygamy was 
declared a felony crime in Utah, a small splinter group, FLDS 
and some others, split off. They have distinctly different 
leadership, different beliefs. And I just want to be absolutely 
clear that there should be no confusion between this small 
sect--actually, one of the largest sects in the United States, 
but small compared to other religions--and the Mormon Church. 
And I hate to say the confusion of names has sometimes led 
media, in particular, to get these two organizations mixed up. 
That is something that is greatly to be regretted.
    The FLDS nomenclature was actually determined by a lawyer 
to create some kind of uniqueness for the sect led by Warren 
Jeffs. It was not chosen by them, but that history has caused 
some bad confusion.
    Senator, could I talk just for one second about the 
coordination?
    Senator Hatch. Sure.
    Mr. Goddard. I believe I speak for your Attorney General, 
Mark Shurtleff, as well as myself to say that we have pled for 
the kind of the Federal cooperation that we are now beginning 
to see in our States. It has taken a while coming, and I do 
appreciate the meeting that was recently held in Las Vegas 
where 50 local and State and Federal law enforcement officers 
got together, shared information, and talked about where we can 
go next to coordinate and cooperate. That is great progress. 
But like any investigation and ultimately, we hope, or believe, 
prosecution, of this size, it is going to need a captain. It is 
going to need some kind of coordination to make sure that 
everybody is on the same page and that they come back to these 
issues each day.
    As I said, the FLDS has thrived in isolation, and they have 
used borders to their great benefit. And unless we can have the 
kind of overall coordination in the region and across national 
borders as well, it is going to be difficult to pursue these 
criminal activities to the end. And I believe that is what this 
hearing is all about. And I hope the Senate will take very 
seriously the request that I support--and I know Attorney 
General Shurtleff solemnly supports--the idea of a task force, 
a strike force, a coordinating entity in the Department of 
Justice that can help us overcome the isolation and the use of 
barriers, jurisdictional barriers, to the benefit of criminal 
activity.
    Senator Hatch. Well, thank you.
    Mr. Tolman, do you agree with Mr. Goddard that the 
worldwide Church of Jesus Christ of Latter-Day Saints should be 
completely delineated as separate from the FLDS?
    Mr. Tolman. Education is ongoing and a challenge with 
respect to this issue, and one of the biggest, I think, hurdles 
comes at the beginning, and that is, who exactly is this group 
and what do they stand for. And the fact that they are separate 
and distinct, that the LDS Church, otherwise known as the 
Mormons, since 1900 have kicked out any of its members who have 
practiced polygamy and has indicated that their membership is 
to strictly adhere to the law. That is a big distinction and an 
area of confusion. I agree with the Attorney General that it is 
unfortunate. But it should be noted that we receive great 
cooperation in Utah by the membership of the LDS Church who 
hope that this practice is eradicated and the damaging effect 
that it has on the children especially, and the women in this 
community, are considerations that are at the forefront of 
their mind and in our mind.
    Senator Hatch. Mr. Abbott, I am sorry I did not have any 
questions for you. I do have some, but I think I have taken 
enough time. But I appreciate the difficulty of your State and 
some of the problems that have existed. And I am just very 
impressed with you and your testimony here today.
    Mr. Goddard. Thank you.
    Senator Hatch. Thank you, Mr. Chairman.
    Senator Whitehouse. I am now pleased to call on the 
distinguished Senator from Maryland, Senator Ben Cardin.
    Senator Cardin. Well, thank you, Mr. Chairman. I thank you 
very much for holding this hearing, and I thank Senator Hatch 
for his leadership in this area and so many different areas 
over the years. And I certainly concur completely with your 
comment about the need to make it clear that FLDS and similar 
groups are in no way related to the Church of Latter-Day Saints 
and legitimate church groups around the country. I thank you 
for making that distinction.
    Senator Hatch. Well, thank you. I appreciate your comments.
    Senator Cardin. On the next panel, there are two witnesses 
that will give firsthand accounts of what it was like living in 
FLDS and their personal experiences and those of their 
families. And I must tell you, I first want to thank you all 
because I know that you are dedicated to doing everything you 
can to protect families in our country and to make sure our 
laws are adhered to and using the resources the best you can to 
make sure that those that are engaged in criminal conduct are 
brought to justice.
    But I must tell you, as I read the testimony of the 
witnesses in the next panel and read their experiences--I chair 
the Helsinki Commission on the Senate side where we look at 
international human rights violations, and what happened here, 
what is happening here in this country is as bad as anything I 
have seen anywhere in the world on children and families that 
have been denied basic human rights because of the activities 
of those involved in these polygamous colonies.
    It is difficult to understand how this can occur in the 
United States and has occurred for such a long period of time. 
One of the witnesses will talk about her experiences with local 
officials, how--and let me just quote. When someone would 
complain of being abused, a woman would complain, they would 
say you ``are married to a good man'' and if she was obedient, 
``there would not be any problems,'' referring to the local 
police returning a woman back to her husband, saying, you know, 
``Be obedient.''
    She then goes on to say that women could not get driver's 
licenses, so, therefore, they could not drive outside of their 
own community. They could drive in their own community because 
the local police would not bother them. And it goes on to talk 
more and more about the collusion of local officials.
    So I really want to ask whether as part of your 
investigation you are looking at the activities of those who 
have sworn to uphold our law and whether they have violated 
their oath, violated statutes in allowing those who needed 
protection being denied the opportunity to get the type of 
services that should have been provided, and whether these 
local officials are really very complicit in the illegal 
activities of these polygamous groups.
    Mr. Tolman. Senator, if I might, that is a constant stream 
of allegations in the history of dealing with this issue, that 
the U.S. Attorney's Office in Utah, speaking just for my 
office, that we have dealt with. We receive several allegations 
each year of corruption, public corruption in the police force 
and those that hold community leadership positions in that 
community.
    We have reached dead ends on so many of the investigations 
that great discouragement has occurred. But I will tell you, 
with the apprehension of Warren Jeffs, some of the evidence 
that has been seized both in Utah and in Texas, we are more 
hopeful than we have been in previous time that we may be able 
to establish the evidence necessary to present that to a 
Federal grand jury.
    Senator Cardin. I think that is very important--and I will 
let you all have a chance, please.
    Mr. Abbott. If I could add, you are actually highlighting 
one of the big challenges. A concern obviously may exist with 
regard to corruption, but you need to understand the broader 
concept of how FLDS goes about their organization network.
    When they came to Texas, they picked a county that was so 
sparsely populated, the FLDS sect would be able to step in and 
perhaps gain control of the governmental apparatus in a way 
that they could keep away from any kind of--or suppress any 
kind of law enforcement effort. There are less than 700 people 
who voted in Schleicher County, Texas, which is the county 
where FLDS set up their sect. We believe that FLDS set up their 
sect in Schleicher County, Texas, understanding that their 
population alone may be able to overtake the voting population 
in the county in a way where they would be able to control the 
local law enforcement agencies in a way where they could evade 
any kind of prosecutorial effort.
    Let me be very clear about one thing. I know you want to 
say something, but I want to be clear. We have seen no evidence 
whatsoever concerning the local officials in the State of Texas 
about any kind of illegal conduct by those local officials or 
anything improper, but we do see this pattern of organization 
by FLDS in a way which way they try to set up their operations 
to evade governmental prosecution.
    Senator Cardin. I will give you a chance to comment.
    Mr. Goddard. Mr. Chairman, Senator Cardin, one of the main 
reasons I am here to plead for additional Federal support is 
because of civil rights violations perpetrated by officials. 
Between Attorney General Shurtleff and myself and the efforts 
of the local law enforcement certifying community, we have de-
certified six town marshals in Colorado City and Hildale. But I 
do not believe that is enough. De-certification is a ponderous 
process. It usually involves, as U.S. Attorney Tolman has said, 
a proof of adherence to something other than the law and 
Constitution. And so we, for instance, have found documentary 
evidence in correspondence with Warren Jeffs where members of 
the Marshal's staff said, ``We will follow you, not the law, 
not the judges.'' We have asked the marshals to serve warrants, 
and they have sat there while fugitives escaped in their 
observation. So these people were not following their sworn 
duty. We have removed six of them, but others who are also 
members of the FLDS have come in their place.
    This is an institutional problem, and the Justice 
Department in other communities--I believe Detroit is one 
example--have gone in and found systematic civil rights 
violations and have taken over their department, found that it 
was unable to perform its sworn duties. I would submit--and 
this was my request 3 years ago--that the Justice Department 
needs to take a hard look at institutional civil rights 
violations with a possible thought of taking over a 
receivership-type operation, because the marshals as an 
institution are having a very hard time following the law.
    Senator Cardin. I would just urge us to learn from how we 
dealt with the civil rights issues and where we knew the local 
officials were very much involved in our strategy in trying to 
deal with the protection of communities and the need for 
Federal involvement. I see a similarity here.
    Just a final point I would make. In the testimony, it was 
brought out about this group could easily be classified as a 
hate group, a hate crimes group, because of what they are 
teaching young children. And I think it really does cry out for 
us to be very comprehensive as to how we go forward. And it 
would be, I think, a clear signal to see criminal charges 
brought against those who have violated the criminal statutes 
that are elected--or who are public officials as a clear signal 
that this cannot be tolerated in this country.
    Thank you, Mr. Chairman.
    Senator Whitehouse. I will conclude this panel by once 
again thanking the witnesses. You bring great distinction to 
this Committee with your presence, and I hope you find that the 
hearing has been helpful in terms of animating the spirit of 
cooperation that is necessary to prosecute these criminal 
offenses. If we can be further helpful, please do not hesitate 
to call on us, and the panel is excused.
    Senator Whitehouse. I will call up our final panel.
    Would you all please raise your right hands? Do you affirm 
that the testimony you are about to give before the Committee 
will be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Mr. Singular. I do.
    Mr. Fischer. I do.
    Ms. Jessop. I do.
    Senator Whitehouse. Please be seated, and I welcome you to 
this Committee. I know that this is a difficult and very 
personal subject, and I have to say you have exhibited very 
great courage and character in being here today, and I 
appreciate it very much.
    Why don't we just go across, beginning with Mr. Stephen 
Singular.

        STATEMENT OF STEPHEN SINGULAR, DENVER, COLORADO

    Mr. Singular. Thank you, members of the Committee.
    I am an investigative journalist and the author of 19 
nonfiction books. Since 1985, I have been writing about that 
line where religion crosses over into criminal behavior. In 
early 2006, my wife, Joyce, suggested that I look into the 
story of Warren Jeffs and the FLDS because she believed that 
women in particular would be interested in this story. She was 
right, and this is a significant point.
    Historically, societies can be measured by how they treat 
women and children.
    That spring, I began traveling to Colorado City, Arizona, 
interviewing townspeople, ex-church members, and law 
enforcement. In 1953, Arizona had raided this community to root 
out the FLDS polygamous lifestyle and had failed both legally 
and in terms of public opinion. Fifty years later, the State 
was employing criminal investigation techniques to target 
specific individuals who were breaking the law, and they were 
having success. Both Arizona and Utah were building a new 
approach to tackling what many have called religious terrorism.
    One victory came with the capture of fugitive Warren Jeffs, 
the prophet or leader of the FLDS. In September 2007, he was 
convicted on two counts of accomplice to rape for forcing a 14-
year-old girl to marry her first cousin.
    Back in the 1970s, Jeffs was the principal of the FLDS-run 
Alta Academy, just outside Salt Lake City, and students there 
later described how he had abused them emotionally and 
physically. His nephew, Brent Jeffs, eventually sued Warren and 
two of his brothers, alleging that when Brent was five, they 
had repeatedly sodomized him in a bathroom in the school 
basement. Brent's brother, Clayne, another victim of these 
attacks, committed suicide. In 2004, when Brent filed a lawsuit 
against the prophet, Jeffs responded to this legal action the 
same way he had to the American Government and to our criminal 
justice system: He had ignored them. As the FLDS prophet, he 
has also ignored:
    No. 1, the child labor laws of Arizona, Utah, and Nevada. 
Young FLDS boys were sent off to work in the church's 
construction companies, and because they were hard-working and 
unpaid, the sect could underbid the competition and generate 
both private and Government business. One FLDS-run company, New 
Era Manufacturing, has a Department of Defense contract for 
aircraft wheel and brake manufacturing worth $1.2 million. JNJ 
Engineering has an $11.3 million deal with the Las Vegas Valley 
Water District. A third FLDS company, Paragon Contractors 
Corporation, has been fined more than $10,000 by the U.S. 
Department of Labor for employing 12- to 15-year-old boys and 
not paying them.
    No. 2, Jeffs ignored the Mann Act, which makes it illegal 
for minors to cross State lines for sexual purposes. As the 
prophet, he routinely commanded men to marry women and teenage 
girls in secret ceremonies in Caliente, Nevada, across the 
border from the FLDS home base in the twin towns of Hildale, 
Utah, and Colorado City, Arizona.
    No. 3, Jeffs ignored the laws against bigamy and underage 
marriage in Arizona and Utah, selecting the men who would 
receive new brides and joining them in ``spiritual marriages.'' 
These ``plural wives'' with dependent children then became 
eligible for welfare payments--and welfare fraud. Colorado City 
has received eight times the welfare assistance of comparably 
sized towns in the area. Despite violating these laws, Colorado 
City has been awarded $1.9 million from the U.S. Department of 
Housing and Urban Development to pave the streets and improve 
the fire department and water system; more than $12 million a 
year from Arizona in health insurance premiums for the poor; 
and a $2.8 million airport from Washington, D.C. The FLDS 
openly despises the American Government while taking its money, 
a tactic they call ``bleeding the beast.''
    No. 4, Jeffs ignored the fate of hundreds of teenage males 
in his community--known as ``Lost Boys''--after they rebelled 
against forced child labor and his other harsh rules. He tossed 
them out of Colorado City and Hildale by the hundreds, leaving 
them to fend for themselves on the streets of St. George, Utah, 
Salt Lake City, and Las Vegas. Some of the young men broke laws 
and were arrested, burdening local police departments and 
publicly funded social services.
    No. 5, Jeffs ignored outside law enforcement because the 
border towns' police force was made up of FLDS members utterly 
loyal to their prophet. After Jeffs had gone underground to 
avoid arrest, Colorado City Police Chief Fred Barlow wrote him 
the following letter: ``Dear Uncle Warren, I would first like 
to acknowledge you as the one man that was and is called of God 
to stand at the head of his priesthood and the Kingdom of God 
on the earth in this day and time. I rejoice in the peace that 
comes over me when I follow the directives that you have sent 
to me through Uncle William Timpson...I am praying for you to 
be protected and yearn to be with you again...And I know that 
you have the right to rule in all aspects of my life...''
    No. 6, Jeffs ignored the genetic disorders caused by the 
sect's inbreeding. In Colorado City and Hildale, Phoenix 
pediatric neurologist Dr. Theodore Tarby uncovered the largest 
occurrence in the world of a rare disease called Fumarese 
Deficiency, which produces overly large heads, misshapen 
brains, deformities, seizures, and even death. The severe 
condition was one more drain on public moneys needed for 
medical care.
    No. 7, following his arrest, Jeffs and his lawyers 
successfully fought efforts to get at FLDS financial records, 
stored on computers in the vehicle in which the prophet had 
been traveling. No complete picture exists of the FLDS income 
streams that supported Jeffs' lavish fugitive lifestyle, paid 
his colossal legal bills or other vast expenses. In 2003, the 
FLDS bought the Texas ranch for about $700,000. Today it has an 
assessed value of $20.5 million. Where did all the funds come 
from for these improvements, and for other purchases of land in 
South Dakota and more recently in Colorado? Has money been 
laundered or taxes evaded?
    Until the FLDS is thoroughly investigated by those with 
subpoena power, the full extent of the sect's sexual abuse, 
forced marriage, underage marriage, and financial schemes will 
remain unknown. A nationwide network now exists of people who 
have escaped the FLDS and understand its workings from the 
inside out. They have spent years trying to get law enforcement 
to investigate the sect more fully, are willing to testify 
against Jeffs and his church, and they would welcome Federal 
action. The FLDS has become both a national phenomenon and a 
national problem--creating generations of victims spread across 
the Southwest. None of this is about religious freedom or 
faith, and FLDS members should not be treated any differently 
from any other American citizen. This is about uncovering and 
prosecuting individual criminal behavior by those who have 
violated State and Federal laws, which is the best way to stop 
those who terrorize in the name of God.
    I respectfully ask you to consider these words and warnings 
from someone who has spent more than 2 years investigating this 
sect.
    Thank you.
    [The prepared statement of Mr. Singular appears as a 
submission for the record.]
    Senator Whitehouse. Thank you, Mr. Singular.
    Our next witness is Dr. Dan Fischer, who was the first-born 
of 36 children in an FLDS family in Salt Lake City. He 
eventually left the community and started Ultradent Products, 
Incorporated, a dental products company. Dr. Fischer also 
started the Diversity Foundation, which, among other things, 
provides shelter and counseling to hundreds of teens expelled 
from polygamous enclaves, known as ``Lost Boys.'' To quote Utah 
Attorney General Mark Shurtleff, ``Dr. Fischer is a remarkable 
man. He has done more for the Lost Boys than everyone else 
combined.''
    Dr. Fischer, we are proud to have you with us.

             STATEMENT OF DAN FISCHER, SANDY, UTAH

    Mr. Fischer. Thank you, Mr. Chairman and members of the 
Committee. Thank you for inviting me here today.
    As was mentioned, I was born in this society. My father had 
three wives. I am or at least was the oldest of 36 children.
    I left the FLDS 12 years ago. I have witnessed for 50 years 
the pivotal changes that brought FLDS to what they are today.
    I am a co-founder with Micha Barach of the Diversity 
Foundation. Over the last 4 years, the foundation has been 
significantly engaged in helping about 230 expelled FLDS young 
people, most of them male.
    When I travel across America and to international 
destinations, should the subject of FLDS and polygamy arise, 
the first expression is disbelief. How could this be occurring 
in America and in the 21st century?
    Reality: The problems caused by the FLDS leadership are 
unacceptable whether they were a polygamous or monogamous 
society. Too often wrongful actions occur under the smoke 
screen of polygamy or religious freedom. Unfortunately, FLDS 
polygamy has degenerated to a cult that is far from benign.
    It would be a mistake to assume that FLDS people are not 
intelligent and/or less than actively engaged in life. In fact, 
many FLDS are intelligent and hard-working. Many are very 
proficient with modern technology, even sophisticated 
surveillance and the like. For example, in 2005, the former 
special investigator for the Utah Attorney General's office, 
Ron Barton, shared with me that approximately $600,000 had been 
granted to the FLDS Colorado City police by the Federal 
Government under the provisions of the new Homeland Security 
program to attain sophisticated surveillance equipment. There 
is good reason to believe they have learned to use it for 
multiple purposes.
    The FLDS feel that they are a suppressed and persecuted 
people. They have banded together in a virtual underground way 
characteristic with what occurs when leadership of any society 
takes total control of both spiritual and temporal life. Their 
prophet is as their God. Whatever he says takes precedent over 
any previous scripture of any previous century. It can also 
take precedent over the laws of the United States.
    Without question, FLDS members will sacrifice self, family, 
and children if directed by their leader. Their salvation and 
exaltation, as taught by their prophet, is dependent on them 
obeying totally what their prophet requests no matter what.
    Who one is married to and when--including underage 
marriage--is totally under the control of FLDS leadership. If a 
young woman refuses to marry a man the prophet tells her to, 
she comes under extreme pressure. And if she chooses someone on 
her own, she may be branded with, in essence, the ``scarlet 
letter.'' If a young man, on the other hand, shows any interest 
in a girl, he is ``kicked out of town.'' Regardless the reason 
a boy is expelled, the directive falls under the control of the 
leadership.
    In more recent years, the FLDS have moved to extreme 
tactics to ``bleed the beast,'' namely, the U.S. Government. 
Some men and businesses will even take out bankruptcy so as to 
keep more moneys funneled toward the benefit of the leadership.
    Warren Jeffs has been known to recommend the book ``The 
Third Reich.'' Warren has had objectionable school books 
destroyed. Not unlike the environment in Nazi Germany, Jeffs 
encourages young people to tell on the wrongs of their parents, 
siblings, and friends. He eliminated the possibility of public 
education for them in 1998. Immediately, over 1,200 children 
lost a quality education. You can multiply the number affected 
by 2 to 3 times after a 10-year period.
    Probably one of the greatest atrocities Warren Jeffs has 
brought upon the FLDS has been the decimation of families. 
Since around 1998, about 250 married men of all ages and some 
with multiple wives, children, and grandchildren have been 
expelled. Their wives will not object. They have been taught 
even by their own husband for years that obedience to the 
prophet must supersede even their love or devotion to him. Many 
of these wives and married children are instructed to change 
their last names to that of the new father. This destroys a 
family, a heritage, a lineage, and the basic glue that holds a 
society together. This plus being cutoff from family and 
community often contributes to much of the post-traumatic 
syndrome issues that we deal with working with the Lost Boys.
    In 1998, my family was destroyed by Jeffs. If you find 
another 2 or 3 minutes in this program, I will share with you 
the events as they transpired. It is a chilling story. It 
happened when I was 50 years old. I had nightmares for a year. 
I still have nightmares.
    The most tragic atrocity caused by the current FLDS 
leadership relates to children. I have often said: ``Keep your 
eye on the ball and the ball is the children.'' We know what 
can occur in the mind of a young child when they are involved 
in even a typical divorce in which there is a presiding judge 
who has the duty of determining what is in the best interest of 
the child. Who looks out for the children when FLDS families 
are destroyed on the order of Jeffs?
    Imagine the horror and terror that must occur in their 
tender minds when they wake up one day to the realization that 
their father is no longer their father; that he will not be 
hugging them, talking to him, or even interacting with them 
ever again. And then imagine what must be going through their 
young minds as they discover their mother is married within 
days to another man who is then kissing and making babies with 
her. Imagine the scarring that will continue in that young mind 
for a lifetime.
    The instant and spontaneous mandate of divorce and 
remarriage is just one example affecting lives of families and 
individuals when due process of law can be circumvented.
    We believe this atrocity has harmed in excess of 1,000 
American children. For some this has occurred multiple times 
with them drug ``family'' to ``family'' and potentially spread 
over multiple States. I believe this ongoing atrocity has and 
will continue to increase the likelihood of additional child 
abuse of multiple dimensions. One of our esteemed Senators, 
Hubert Humphrey, said something to the effect: You can measure 
the quality of a society by the level of importance they put on 
protecting their most vulnerable citizens. No Americans are 
more vulnerable and more precious than our children.
    The Diversity Foundation was founded about 10 years ago. It 
was founded for the purpose of furthering a better 
understanding with America's youth of the value of diverse 
races, religions, and backgrounds. For the last 4 years it has 
been substantially engaged in helping young men who have been 
expelled or left the FLDS society. This weaning of the flock of 
males continues even though the boys may try to return home, 
and even when a court order attempts to send them home. This is 
the case in spite of many prominent FLDS claiming there are no 
Lost Boys, but only rebellious boys as found in other 
societies. Included in my submission are short audio clips of 
Jeffs teaching young people, grades 5 to 8, how and for whom 
the prophet decides to ``kick out of town.'' Listening to it 
brings another dimension to the problem.
    Diversity's greatest expenditures with the castaway young 
men are for education and psychological counseling. Imagine the 
challenge that exists for a 13-year-old who must make it on his 
own. Imagine the challenge that occurs for a 20-year-old who 
can neither read nor write or does not even know multiplication 
tables--someone who was kept out of school to work in heavy 
construction at a very young age, their earnings going to 
family or FLDS leadership. Tragically, some of these young boys 
have even died in accidents on constructionsites.
    In a cloistered polygamous society, simple math and biology 
tells us some boys must either become bachelors for life or 
leave. More recently, a few young girls have come out. Counter 
to Jeffs's view of boys as expendable, FLDS characteristically 
fight hard to keep their girls. Multiple years of expelling 
free spirits plus downgrading and preventing education 
ultimately rapes a society. Hitler and Stalin killed their self 
thinkers and intellectuals. Jeffs prevents or expels them.
    I value our religious freedoms. However, claims of freedom 
of religion should not be allowed to blind us to the many 
illegal and unconscionable activities of FLDS leadership. I 
invite Congress to take appropriate measures to protect all 
innocent parties, but especially children. As was once said, 
``Doing the right thing is not always easy but it is always the 
right thing.''
    Thank you,
    [The prepared statement of Mr. Fischer appears as a 
submission for the record.]
    Senator Whitehouse. Thank you, Dr. Fischer.
    Our next witness is Carolyn Jessop. Carolyn Jessop was born 
into a polygamous family. When she was 18, Ms. Jessop was 
forced to marry a 50-year-old man. She was his fourth wife. 
Over the course of 15 years, Ms. Jessop had eight children and 
lived with her husband and his wives in Colorado City, Arizona. 
Early one morning, in the spring of 2003, Ms. Jessop packed her 
eight children into a van and escaped from Merril and the 
polygamous community. They fled to Salt Lake City, and in 2007, 
Ms. Jessop co-authored a book, ``Escape,'' about her life in 
the polygamous community and her escape from the community. We 
welcome her here to the Committee.
    Ms. Jessop?

         STATEMENT OF CAROLYN JESSOP, WEST JORDAN, UTAH

    Ms. Jessop. Thank you, Mr. Chairman and members of the 
Judiciary Committee. It is both a privilege and an honor for me 
to be here today. I am here today to inform this panel about my 
firsthand experiences of the systematic abuse and the disregard 
for the law within the FLDS which leads to the isolation of its 
most vulnerable individuals within any community--women and 
children, who live without the protection of laws that most 
Americans take for granted.
    In my experience in Colorado City, Arizona, the mayor, many 
city officials, the chief of police, and every police officer 
were all members of the FLDS and were essentially hand-picked 
by church leaders.
    If a woman was beaten by her husband and called the police, 
she was typically told by the police officer that she was 
``married to a good man,'' and if she were obedient, ``there 
would not be any problems.'' The police would not interfere 
with their religious teachings. This gave a man the right to 
discipline his household.
    FLDS women were expected to drive unlicensed, unregistered, 
uninsured cars around the community. I was never once pulled 
over by a local police officer for this infraction. This meant 
that I had transportation within the community, but I could not 
drive beyond its borders without being stopped.
    I would like to just insert here that the day I left to 
escape with my children, I drove out of that community in an 
unlicensed, uninsured vehicle. If Merril Jessop would have 
called the police, that is the very thing. They would have 
pulled me over and prevented my escape, and I would have been 
charged for that.
    The night I escaped with my children, I knew I could not go 
to the local police for protection because they would be the 
first men that Merril would call to hunt me down. The result of 
this collusion between the FLDS and police is that there is 
nowhere to turn for a woman who is seeking refuge from an 
abusive situation.
    Boys and girls, often as young as 12, are required to leave 
school and work for the FLDS businesses, which were often 
construction firms. It is not uncommon for these children to be 
required to be on the work site by 6 a.m. or 7 a.m. in the 
morning and work until dark, which could be as late as 9 p.m. 
in the summer.
    My oldest son Arthur was one of these children. He was 12 
when he was pulled out of religious school, the only education 
available at the time to FLDS children. He was sent to work for 
his half-brother's business. This was not a summer job. This 
was full-time, year-round employment of sorts. My son was not 
paid.
    In Colorado City, I did not know a safe place I could go to 
report child labor abuse. I could not report it to local 
authorities because they were all part of the FLDS. I feared if 
I went outside of the community to Child Protective Services I 
would be held accountable because I was his mother.
    I knew, as does every woman in the FLDS, that polygamy is 
an illegal lifestyle. We fear going to any service agencies 
outside our community because of the risk that we would get 
into trouble instead of being helped. We are all multi-
generational Americans, but we have the same fears as any 
illegal immigrant. I know I did not believe I had the same 
constitutional rights as other Americans.
    In 2002, as Warren Jeffs increased his tyrannical hold on 
the FLDS, all FLDS children were taken out of public schools 
and placed in religious schools. The focus moved from teaching 
reading, writing, and mathematics to Warren Jeffs's tapes, 
which indoctrinated the children into such beliefs as these. If 
a man is instructed by the FLDS prophet to take the life of 
another human being, he should do so in humility.
    All school materials had to be authorized and approved by 
Warren Jeffs, which meant that religious schools did not have 
access to normal educational textbooks. In the FLDS school my 
children attended, there was no one with a college education. 
It was forbidden. To the best of my knowledge, none of the 
teachers were certified. No standardized tests were ever given 
to measure a child's learning progress. This is creating a 
generation that is functionally illiterate. After we escaped 5 
years ago, my children started in public schools. They were 
already at least 3 years behind academically.
    In 2006, after Warren Jeffs was arrested, the religious 
schools in Colorado City and Hildale were closed. Parents were 
told to keep their children home and pray for the destruction 
of ``the wicked.'' Approximately 700 households of FLDS member 
families were affected by this order, and for the last 2 years, 
the majority of FLDS children residing in Colorado City and 
Hildale have not been registered for either home schooling or 
religious schooling. Their education has essentially stopped.
    Somewhere toward the end of 2001, Warren Jeffs started 
taking young girls who were between the ages of 14 and 16 from 
Colorado City, Arizona, and Hildale, Utah, to Merril Jessop's 
hotel in Nevada to perform secret marriages. While not all men 
in the FLDS have plural marriages and engage in sex with 
underage girls, it is considered socially acceptable and 
religiously desirable behavior, especially under the leadership 
of Warren Jeffs.
    In 2003, one of the main reasons I fled with my eight 
children was that Betty, my oldest daughter, was about to turn 
14, the age at which young girls were being married. After I 
escaped, Merril subsequently married two 16-year-old girls: one 
was to him from an FLDS group in Canada, the other was sent 
from Hildale, Utah to his home in Colorado City, Arizona. I 
know this because Merril introduced these teenage girls to my 
children as his new wife.
    I speak truthfully and from firsthand experience when I say 
that I was not free to leave my husband or this religion. From 
the time I took my first steps away from Merril Jessop, I 
needed legal protection.
    It took 2\1/2\ years before I received any housing 
assistance. Because of the number of my children, I did not 
qualify for low-income housing. I was told by a State employee 
that I qualified in terms of need for refugee services. 
However, these services are only available for people coming 
from other countries. In other words, there is more help for a 
woman fleeing the persecution of a communist country than there 
is for a woman fleeing from polygamy.
    Women leaving close polygamous communities need physical 
protection, psychological intervention, and emotional support 
for themselves and their children. They need appropriate 
housing assistance, most of which exists for women with only 
three or four children.
    When I first fled, I felt like I had landed on another 
planet. I had only limited exposure to the outside world, a 
world I had been brainwashed to believe from birth was evil. My 
rights to my own life and liberty were taken from me when I was 
forced to marry Merril Jessop. I never knew what it meant to 
feel safe until I was 35 years old and went into hiding on the 
third day of freedom after our escape. It took me a year before 
I could think of myself as a person, not an object.
    I stand here today to ask the U.S. Government to provide 
Federal oversight to closed FLDS communities so the FLDS 
members who are seeking refuge know where they can find a safe 
haven if they choose to leave. I stand here today to ask the 
U.S. Government to see that the laws of this land are reliably 
and equally enforced in FLDS communities as they are in the 
rest of the United States. I stand here today to ask the 
Government to guarantee that reasonable education be provided 
for FLDS children, the same as it is for other American 
children. I stand here today to ask the U.S. Government, my 
Government, to show up for FLDS children the same as it does 
with respect to all of its other citizens. This would not be 
religious persecution, just equal protection, equal enforcement 
of the law.
    Thank you for inviting me to testify today.
    [The prepared statement of Ms. Jessop appears as a 
submission for the record.]
    Senator Whitehouse. Well, thank you for your testimony, and 
thank you to all of the witnesses. Each of you in your own way 
has really been remarkable: Mr. Singular, in your persistence 
in investigating and bringing to light these practices; Dr. 
Fischer, in surviving them and turning what happened to you 
into such a force for good for the Lost Boys that, as you point 
out, are produced by biology and mathematics in a polygamous 
community; and perhaps most astonishingly, to you, Ms. Jessop, 
who at such a young age with so many young children dependent 
on you, with so little support behind you, and with a 
completely uncertain future in an unknown world, in fact, in 
front of you, nevertheless took the courageous step of stepping 
into that unknown and away from everything that you knew and 
pursued freedom you knew that you and they deserved. It is a 
very impressive story.
    I am not going to ask questions at this point. I am going 
to defer to Senator Hatch.
    Senator Hatch. Well, thank you. I will not ask many 
questions. But, Dr. Fischer, I think you should be commended 
for how generous you have been with your resources and through 
your organization, the Diversity Foundation. You mentioned in 
your statement the FLDS polygamy has ``degenerated into a cult 
that is far from benign,'' if I have quoted you correctly. What 
do you think has changed in the FLDS church over the past 
several years to warrant your making that statement?
    Mr. Fischer. Yes, I think the first significant changes 
occurred around 1957, 1958, when it became church policy 
mandating that courtship stop, that young people would be 
married strictly by appointment of the leadership. This puts a 
tremendous magnitude of power within a leadership.
    I believe another factor was the institution around the 
same time of a young man's missionary program in which they 
would work for 2 to 3 years for the church. If they proved to 
be worthy, obedient, they were given a ``blessing,'' namely, a 
wife.
    I see also the milestones of increased pressures for the 
law of consecration in which, if you were FLDS living in Salt 
Lake, you should have your home, your title assigned over to 
the leadership. This was a given in Short Creek.
    I see in the mid-1980s then a very aged prophet, a 
gentleman so well respected by FLDS for his human and family 
values, even in spite of the laws against polygamy, who as he 
became older, and with some of the priesthood council split and 
Rulon Jeffs only standing by him, putting in place a scary 
precedent.
    It evolved in that time that Leroy Johnson should be looked 
at as the one man who was virtually as God; and, furthermore, 
that, in fact, he would never die. And then it evolved to where 
the world would end in the year 2000, which brings another 
tremendous amount of fear to membership.
    It also became common teaching, often from the pulpit, that 
God would not allow a mentally compromised individual to sit in 
the capacity of prophet of that society. So by the time Warren 
was able to grasp the reins--Warren, I believe firmly, is not a 
normal human--I lived with him with my own children in the Alta 
Academy--It enabled him to immediately be looked at as a 
virtual god, and it became virtually impossible for people to 
be able to speak frankly so to say this guy is stuck in the 
mud. He is not only stuck in the mud, he has a blown engine.
    It is a remarkable set of circumstances that have brought 
them to this point.
    Senator Hatch. Well, thank you.
    Ms. Jessop, I, too, applaud your courage and determination, 
and without a doubt you have been through an awful lot. The 
experience that you outlined in your statement, the various 
experiences were very moving and we are grateful that you could 
be here and help us here today.
    Now, in your testimony you mentioned that you previously 
did not believe that you had the same constitutional rights as 
other Americans. Could you elaborate on that a little bit more?
    Ms. Jessop. That involves the fact that I knew if I went to 
authorities, I would be viewed as a criminal. So I did not 
believe that--I mean, I did not see myself as a normal citizen.
    Senator Hatch. I see.
    Ms. Jessop. And so I just believed that, you know, I did 
not have access to the same protections.
    The other thing, the other element, is there were 
substantial holes in my education. I did go to public school 
within the FLDS, but as I covered in my statement, I did not 
read. But the administration were all FLDS, so were the 
teachers, most of the teachers. And it was not at all uncommon 
to receive a textbook with chapters cut out. So I did have 
substantial holes in my education as to what my rights were and 
how I was protected.
    Senator Hatch. I see. Now, I understand that Arizona and 
Utah both established 24-hour toll-free hotlines operated by 
professional counselors to talk about child abuse and domestic 
violence. Do you believe that the victims in the polygamous 
communities are aware of these hotlines? And if so, do they 
have the fear of using them?
    Ms. Jessop. I know that those hotlines were established 
after I talked to Mr. Shurtleff about my experience and how 
difficult it was for me to get out of the community. There have 
been individuals that have donated signs to help fund some of 
the awareness. So I believe that there is some awareness. I do 
not know how much. I do think that people are terrified to use 
those lines because, if they do--if you want to try leaving the 
society, failure is not an option. You cannot fail. I am sure 
that an individual would be terrified in using that line and if 
somebody overheard them talking. Will there be appropriate 
help? How quickly will it come? There are a lot of concerns.
    Senator Hatch. Thank you, Mr. Chairman.
    Senator Whitehouse. Senator Cardin?
    Senator Cardin. Well, I want to join with the Chairman and 
Senator Hatch in thanking you for appearing here, and I admire 
your courage in doing the investigations or what you have done 
in escaping the circumstances and turning this around to try to 
help other people. I thank you for that.
    I would just like to give an analogy to an issue that the 
United States has been in the forefront in the international 
community, and that is, we have led the fight against the 
trafficking mainly of young women, but also boys, 
internationally, and have been responsible for the change of 
laws in other countries and the international organizations 
establishing the ability to help countries deal with the issues 
of trafficking.
    What happens in trafficking is that in many cases there are 
different entities that are involved with telling women there 
are opportunities in other countries and they either transport 
them illegally or they keep their travel documents and keep 
their money so that they are involved in prostitution or other 
types of child labor issues and are trapped. And if they try to 
leave, there is no opportunity to leave because they do not 
have their documents, they do not have any money, and if they 
go to the local police, the local police look at them as 
criminals, as you pointed out, Ms. Jessop. As you sought 
services, you were looked at as being different, that you did 
something wrong; you were involved in a polygamous marriage, 
therefore, you were a criminal.
    And it took us a long time to get it through that you are a 
victim, and the people that are involved here are victims. And 
I think, Ms. Jessop, your recommendation that there be services 
available, that we treat the people who have been trapped in 
these circumstances as victims, until we get that through, I 
think it is going to be very difficult to deal with these 
colonies.
    I am pleased that Senator Reid in his legislation 
acknowledges this and provides for help for victims. And I 
think we need to do a better job in the way that we get public 
attention to this issue. I raised with the last panel that 
those that are involved as public officials in communities that 
do nothing about it, to me they are the ones that really need 
to be focused on, because they are allowing this to continue.
    I think Senator Hatch's point about making it clear that 
there is going to be help available so that people feel 
comfortable to come forward, that this will be immediate and it 
will be effective in being able to escape the traps that are 
currently available.
    So, again, I want to thank you for giving us a face to this 
issue. I know it is not easy to be here today, and I thank all 
three of our witnesses.
    Thank you, Mr. Chairman.
    Senator Whitehouse. I thank Senator Cardin for his 
observation. Senator Cardin has really distinguished himself in 
the Senate for his concern and work on international human 
rights issues. And I had not really thought of it before, but 
the trafficking analogy is really quite a good one. It is sort 
of trafficking in place. But the abuse, the lack of choice, the 
dependence--all of the elements that create the sort of aura of 
servitude and loss of freedom that is sort of the underlying 
concern about trafficking. It is not the travel that is the 
problem with trafficking. It is the servitude, and really that 
I think is what we are seeing here.
    I just have one question. Attorney General Abbott in his 
testimony mentioned that this organization had what he 
described as unlimited resources. And Ms. Jessop in her 
testimony mentioned that this organization has vast resources. 
I wonder if each of you would care to comment briefly on any 
measure you might be able to give us, either precise or just 
sort of by comparison, of what you believe the extent of the 
resources are under the control of this organization. Mr. 
Singular?
    Mr. Singular. Well, we know that when the heat started to 
come on them in Utah and Arizona, they began buying land in 
South Dakota. They bought 1,700 acres in Texas. They bought a 
couple of pieces of property in western Colorado. More 
recently, they have been buying several more pieces of property 
on the other side of the mountains in Colorado, south-central 
Colorado. We know Jeffs had a high-powered set of attorneys 
during his legal incarceration and trial. He is on trial again 
in Arizona. I talked in my presentation about the land going 
from $700,000 to $20.5 million. I was on the property a couple 
of months ago. Very impressive buildings there.
    There seems to be endless income streams coming into the 
sect from all different sources, and I think that is really 
what needs to be investigated. There has been talk of them 
creating dummy corporations all around the West and laundering 
money through them and that needs to be looked into. That has 
occurred in Nevada, and I believe has occurred in Wyoming. It 
is one of the ways that they buy property and move money 
around. It is also the way that they keep this from being 
traced back to church leaders like Jeffs. They filter it 
through these corporations.
    As I mentioned in here, again, there are private 
investigators who have looked into this. There are a number of 
people who should be brought forward in front of the task force 
who have more information, who have spent years looking into 
this, who can show where the money is being filtered and 
laundered, if it is, and that is what needs to be pursued.
    Senator Whitehouse. Dr. Fischer, do you have any 
observation on the extent of their wealth and resources?
    Mr. Fischer. Yes. Even connecting to lands being 
consecrated to the priested, from even back in the mid-1930s, 
and, in fact, Colorado City-Hildale was established by their 
forefathers, if you will, and all lumped into what was a 
``united effort'' fund or trust with all of the properties held 
in common. This had been the case until a judge determined 
Warren unfit to administer the ``united efforts'' trust. Prior 
to that, Warren had men selling off parcels of these properties 
which I am sure helped fund many of his activities from Texas 
to South Dakota and the like.
    There was a large ranch, for example, that was owned by the 
Steed family bordering Bryce Canyon, a fabulous large spread. 
It was a very important piece for even providing food and 
sustenance to poor members of the community. This was sold off, 
I am told, for about $8 million. I am sure these type of sales 
have helped him immensely.
    My younger brother, Shem, who is one of the few who have 
gotten out, the only one of my brothers of my father's first 
two wives, save myself, shares how, when visiting another 
company in the FLDS, how the employees have not been paid for 
some three to four pay periods. They were invited to take 
vouchers in lieu of paychecks to obtain things in trade and 
with the direct communication to them that this would prevent 
the need for paying taxes.
    It is important to note that Warren Jeffs with his father 
in the early 1990s began a systematic takeover of all the 
businesses in which the owners were expected to sign the 
ownership of their businesses over to FLDS/Jeffs leadership. 
This furthermore keeps many of these people in line. A sad 
fallout is that certainly mixing church and state is a problem, 
but mixing church and businesses is goofy.
    And it leads me to one other factor that I failed to 
mention to you, Senator Hatch, on the subject of the changes. 
One of the most significant changes that came about occurred 
starting in the mid- to later 1990s in which, to our horror, it 
became evident that not only did this leadership now possess 
the ability of determining who one married but additionally had 
the ability to determine for how long they stayed married and 
what happened to them by a unilateral determination. And that 
is when the massive annihilation of families started in which 
at just a phone call, as early as 4:30 a.m. for my father's 
family. All were invited to the Jeffs compound. Rulon presided. 
My younger brother, Shem, was there. He wrote a firsthand 
account. If you do not mind, Mr. Chairman, I am going to read 
his report. I think it is important you understand that this 
magnitude of control will cause men, young people, and others 
to do whatever they are told, to work for nothing, even to 
generate moneys to support this prophet.
    Senator Whitehouse. Proceed.
    Mr. Fischer. Shem states: ``On or about October 1999, the 
sound of the ringing telephone awoke me at about 4:30 a.m. at 
my Hildale home. The trembling sound of my mother, Mary Zitting 
Fischer, was faintly audible as she delivered the following 
message: `Shem, dear, you and your family need to get dressed 
and meet me at Uncle Rulon's place at 5:30 a.m. this morning. I 
have been released from your father.' ''
    This means divorced.
    ``I have been released from your father, and it is 
important you attend the meeting this morning and get 
instructions from our prophet as to what you should do.''
    ``There was never any indication of any problem of this 
magnitude with my father or our family, so such came as a total 
shock. Astonished by what I had just heard, I began asking 
questions. Mom simply said, `Shem, be at Uncle Rulon's at 5:30 
a.m.' ''
    ``Then came the audible click of the phone followed by the 
dial tone. I awoke my wife and children and helped get them 
dressed, then made the trip up the street to Uncle Rulon's home 
on Utah Avenue, a few blocks away. Upon arrival, I discovered 
my dad's three wives assembled with many of my other brothers 
and sisters. They were huddled in the center of the large front 
room located just inside the front entrance of Rulon Jeffs's 
sprawling hilltop home. To my surprise, my dad was not invited, 
nor was he in attendance. Several of my siblings were crying, 
and many of my brothers were obviously torn about the 
situation.''
    ``After several minutes, Warren could be seen assisting his 
father, Rulon Jeffs, across the room to a big overstuffed 
armchair. Rulon was very gray, feeble, and he was using oxygen. 
The room slowly grew quiet except for the occasional sound of a 
child's sob. Warren Jeffs began by saying our father was not 
worthy of his three wives, and the time was too short for him 
to repent. He had lost the power of his priesthood. We needed 
to lift up his wives and preserve them from the destruction 
that would soon cover the North and South American continents. 
Warren went on to assure us that his father, Rulon, had prayed 
about this for quite some time and this was the will of God.''
    ``All of my father's sons were admonished to support `God's 
will' in this decision and to support God's prophet on the 
Earth at this time.''
    ``Suddenly, Warren Jeffs was interrupted by my 8-year-old 
sister, Lily Ann Fischer. Sobbing profusely, Lily said, `Is 
there no hope at all for my father's salvation? Can't he repent 
and get his family back?' Without hesitation, Warren simply 
said, cold and calm, `No. The time is too short. There is no 
hope for your father to gain the highest degree of salvation.' 
''
    ``His voice was so very cold and direct as he continued to 
direct dad's family to support their actions. Warren asked all 
the sons to show their support by shaking hands with him and 
his father, Rulon, who was slumped over and drooling on 
himself.''
    ``At that point, I became very conflicted with the 
proceedings and exited the room with my family without shaking 
hands with Warren and his father. The blood was cast in the 
water at that time, and I knew Warren would soon take action to 
cut me off from my family and the social community I had known 
for 30-plus years.''
    ``Within 5 days, all three of my mothers were assigned to 
other men, one of them my biological mother''--Shem's 
biological mother--``and the biological sons of each mother 
were encouraged to drop their surname ``Fischer'' and take up 
the surname of their new father. My mother married Rulon Jeffs, 
who was married earlier to my two biological sisters, Mary and 
Ruth. My mother (Shem's) became something like Rulon's 57th 
wife. Rachel, Dan's mother ''--myself--``was married to Dan 
Jessop, Senior, and Robin was married to Alan Steed, who had 
also previously been married to my little sister, Sarah, but 
was later remarried, with all the other wives of Alan's, to 
Dean Cook, when Alan's family was destroyed and he was sent to 
``repent from afar''--meaning Robin Fischer with her children 
were now passed on to a third man.
    ``My father was given 4 hours to remove his personal 
effects from the home he had built over a 30-year period. He 
was instructed to move into the upstairs unfinished space of 
his son Lorin's house. He was instructed to continue to provide 
financial support for his minor children even though he could 
no longer visit or associate with them.''
    ``Things became extremely difficult for me over the next 
several months. Warren became extremely bold in delivering 
modern-day revelations by his father Rulon Jeffs. In mid-July 
2000, Warren delivered a sermon at a general meeting and told 
the FLDS faithful to stop doing business with apostates''--
apostates are those who have left--``and to remove any apostate 
employee from their business. As a result of this sermon, John 
Musser, a quality employee, was fired. I opposed this action 
and was eventually called to meet with Warren Jeffs and his 
legal advocate, Sam Barlow, to determine my fate.''
    ``After 2 hours of frustrating discussions with Warren, he 
instructed Sam Barlow to remove me from the UEP property and to 
make sure I never again associated with any of the FLDS 
faithful. I was soon evicted from my home and the family 
business I had helped to build my entire life. I was age 40. It 
is a hell of a feeling to all at once discover you are in 
forfeit at age 40.''
    ``I tried contacting brothers. To the few who would talk to 
me on the phone, I tried to explain to them my experience with 
Warren and that he was abnormal. This goes nowhere, obviously. 
I managed to talk to my father. He said that it was God's will 
and, furthermore''--and now we are talking November 1999--
``that the end of the world was imminent, which he believed to 
his core.''
    ``I said, `Dad, Dad, please trust me. The world is going to 
continue after the year 2000.' He gave me evidence that it 
wouldn't, even citing the example of that rare''--my mind went 
blank, when you have not a hurricane but a spiral cloud.
    Senator Whitehouse. Tornado?
    Mr. Fischer. Yes, when that strange tornado went through 
Salt Lake and killed one of our Utah citizens. Dad claimed that 
that was a manifestation from God that the end was near. He 
claimed other manifestations.
    ``I said, `Dad, how about we meet in the year 2001 and we 
talk about it? ' He wouldn't commit. So I said: `Dad, let's 
meet in the year 2002.' He wouldn't commit. so I said, `Dad, 
how about we talk in 2003? ' He said, `Well, OK, maybe.' ''
    We never had the chance for that conversation to occur. My 
father put a lot of miles on his car every year in his 
business. He could drive 50,000 miles a year. He was known to 
go to sleep at the wheel. It had become family practice, if he 
was making trips beyond town, that an older child who had a 
driver's license would go and drive for him. Once he approached 
the home that he had built over 30 years, now occupied by Alan 
Steed, who had been married to his third wife, with many of her 
children, including older teenage sons in the house, to ask if 
one of his sons could come with him. In a scornful voice, he 
said, ``Whose sons? '' And he found he had to drive alone. He 
was in his mid-seventies.
    At a stretch of the freeway between Hurricane and St. 
George, he plowed into one of the only deep ravines for some 
distance. There weren't any skid marks. Did he go to sleep? 
Possibly. Did he just decide to plow it in? Possibly. Do I hold 
Warren responsible? In either case, yes.
    There have been men who have even committed suicide upon 
these atrocious activities. When you have the fear and the type 
of fear that requires you and even all around you act as though 
you sustain and uphold and support the prophet--and you must--
because if by any sense or measure the prophet determines that 
you are out of sync, disobedient with his desires, you can be 
pulled before him. He will demand confessions, even written. He 
will tell the man that God has revealed to him all of the sins 
and that if the man's list does not match what God has revealed 
to him, it is a major problem.
    When you have that magnitude of power over men, over 
families, and when you have a people who have grown up in 
earlier years with a fabulous work ethic, as a resourceful 
people, especially growing up with values--I would not exchange 
the values taught from my mother's knee for anything. But when 
you gain control of a few thousand people who have all those 
values and work ethic, you can accomplish a lot--and, 
tragically, even when those resources are sadly misused.
    Senator Whitehouse. Well, I very much appreciate the 
testimony of all of the witnesses. The time for this hearing is 
actually long past, but I thought it was worth continuing it.
    I thank you all very much. Each of you has engaged in acts 
of courage that are impressive to this Committee. We appreciate 
it.
    The record of this hearing will remain open for 7 days if 
anybody wishes to add anything to these proceedings, and other 
than that, the hearing is adjourned.
    [Whereupon, at 12:15 p.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] T4773.001

[GRAPHIC] [TIFF OMITTED] T4773.002

[GRAPHIC] [TIFF OMITTED] T4773.003

[GRAPHIC] [TIFF OMITTED] T4773.004

[GRAPHIC] [TIFF OMITTED] T4773.005

[GRAPHIC] [TIFF OMITTED] T4773.006

[GRAPHIC] [TIFF OMITTED] T4773.007

[GRAPHIC] [TIFF OMITTED] T4773.008

[GRAPHIC] [TIFF OMITTED] T4773.009

[GRAPHIC] [TIFF OMITTED] T4773.010

[GRAPHIC] [TIFF OMITTED] T4773.011

[GRAPHIC] [TIFF OMITTED] T4773.012

[GRAPHIC] [TIFF OMITTED] T4773.013

[GRAPHIC] [TIFF OMITTED] T4773.014

[GRAPHIC] [TIFF OMITTED] T4773.015

[GRAPHIC] [TIFF OMITTED] T4773.016

[GRAPHIC] [TIFF OMITTED] T4773.017

[GRAPHIC] [TIFF OMITTED] T4773.018

[GRAPHIC] [TIFF OMITTED] T4773.019

[GRAPHIC] [TIFF OMITTED] T4773.020

[GRAPHIC] [TIFF OMITTED] T4773.021

[GRAPHIC] [TIFF OMITTED] T4773.022

[GRAPHIC] [TIFF OMITTED] T4773.023

[GRAPHIC] [TIFF OMITTED] T4773.024

[GRAPHIC] [TIFF OMITTED] T4773.025

[GRAPHIC] [TIFF OMITTED] T4773.026

[GRAPHIC] [TIFF OMITTED] T4773.027

[GRAPHIC] [TIFF OMITTED] T4773.028

[GRAPHIC] [TIFF OMITTED] T4773.029

[GRAPHIC] [TIFF OMITTED] T4773.030

[GRAPHIC] [TIFF OMITTED] T4773.031

[GRAPHIC] [TIFF OMITTED] T4773.032

[GRAPHIC] [TIFF OMITTED] T4773.033

[GRAPHIC] [TIFF OMITTED] T4773.034

[GRAPHIC] [TIFF OMITTED] T4773.035

[GRAPHIC] [TIFF OMITTED] T4773.036

[GRAPHIC] [TIFF OMITTED] T4773.037

[GRAPHIC] [TIFF OMITTED] T4773.038

[GRAPHIC] [TIFF OMITTED] T4773.039

[GRAPHIC] [TIFF OMITTED] T4773.040

[GRAPHIC] [TIFF OMITTED] T4773.041

[GRAPHIC] [TIFF OMITTED] T4773.042

[GRAPHIC] [TIFF OMITTED] T4773.043

[GRAPHIC] [TIFF OMITTED] T4773.044

[GRAPHIC] [TIFF OMITTED] T4773.045

[GRAPHIC] [TIFF OMITTED] T4773.046

[GRAPHIC] [TIFF OMITTED] T4773.047

[GRAPHIC] [TIFF OMITTED] T4773.048

[GRAPHIC] [TIFF OMITTED] T4773.049

[GRAPHIC] [TIFF OMITTED] T4773.050

[GRAPHIC] [TIFF OMITTED] T4773.051

[GRAPHIC] [TIFF OMITTED] T4773.052

[GRAPHIC] [TIFF OMITTED] T4773.053

[GRAPHIC] [TIFF OMITTED] T4773.054

[GRAPHIC] [TIFF OMITTED] T4773.055

[GRAPHIC] [TIFF OMITTED] T4773.056

[GRAPHIC] [TIFF OMITTED] T4773.057

[GRAPHIC] [TIFF OMITTED] T4773.058

[GRAPHIC] [TIFF OMITTED] T4773.059

[GRAPHIC] [TIFF OMITTED] T4773.060

[GRAPHIC] [TIFF OMITTED] T4773.061

[GRAPHIC] [TIFF OMITTED] T4773.062

[GRAPHIC] [TIFF OMITTED] T4773.063

[GRAPHIC] [TIFF OMITTED] T4773.064

[GRAPHIC] [TIFF OMITTED] T4773.065

[GRAPHIC] [TIFF OMITTED] T4773.066

[GRAPHIC] [TIFF OMITTED] T4773.067

[GRAPHIC] [TIFF OMITTED] T4773.068

[GRAPHIC] [TIFF OMITTED] T4773.069

[GRAPHIC] [TIFF OMITTED] T4773.070

[GRAPHIC] [TIFF OMITTED] T4773.071

[GRAPHIC] [TIFF OMITTED] T4773.072

[GRAPHIC] [TIFF OMITTED] T4773.073

[GRAPHIC] [TIFF OMITTED] T4773.074

[GRAPHIC] [TIFF OMITTED] T4773.075

[GRAPHIC] [TIFF OMITTED] T4773.076

[GRAPHIC] [TIFF OMITTED] T4773.077

[GRAPHIC] [TIFF OMITTED] T4773.078

[GRAPHIC] [TIFF OMITTED] T4773.079

[GRAPHIC] [TIFF OMITTED] T4773.080

[GRAPHIC] [TIFF OMITTED] T4773.081

[GRAPHIC] [TIFF OMITTED] T4773.082

[GRAPHIC] [TIFF OMITTED] T4773.083

[GRAPHIC] [TIFF OMITTED] T4773.084

[GRAPHIC] [TIFF OMITTED] T4773.085

[GRAPHIC] [TIFF OMITTED] T4773.086

[GRAPHIC] [TIFF OMITTED] T4773.087

[GRAPHIC] [TIFF OMITTED] T4773.088

[GRAPHIC] [TIFF OMITTED] T4773.089

[GRAPHIC] [TIFF OMITTED] T4773.090

[GRAPHIC] [TIFF OMITTED] T4773.091

[GRAPHIC] [TIFF OMITTED] T4773.092

[GRAPHIC] [TIFF OMITTED] T4773.093

[GRAPHIC] [TIFF OMITTED] T4773.094

[GRAPHIC] [TIFF OMITTED] T4773.095

[GRAPHIC] [TIFF OMITTED] T4773.096

[GRAPHIC] [TIFF OMITTED] T4773.097

[GRAPHIC] [TIFF OMITTED] T4773.098

[GRAPHIC] [TIFF OMITTED] T4773.099

[GRAPHIC] [TIFF OMITTED] T4773.100

[GRAPHIC] [TIFF OMITTED] T4773.101

[GRAPHIC] [TIFF OMITTED] T4773.102

[GRAPHIC] [TIFF OMITTED] T4773.103

[GRAPHIC] [TIFF OMITTED] T4773.104

[GRAPHIC] [TIFF OMITTED] T4773.105

[GRAPHIC] [TIFF OMITTED] T4773.106

[GRAPHIC] [TIFF OMITTED] T4773.107

[GRAPHIC] [TIFF OMITTED] T4773.108

[GRAPHIC] [TIFF OMITTED] T4773.109

[GRAPHIC] [TIFF OMITTED] T4773.110

[GRAPHIC] [TIFF OMITTED] T4773.111

[GRAPHIC] [TIFF OMITTED] T4773.112

[GRAPHIC] [TIFF OMITTED] T4773.113

[GRAPHIC] [TIFF OMITTED] T4773.114

[GRAPHIC] [TIFF OMITTED] T4773.115

[GRAPHIC] [TIFF OMITTED] T4773.116

[GRAPHIC] [TIFF OMITTED] T4773.117

[GRAPHIC] [TIFF OMITTED] T4773.118

[GRAPHIC] [TIFF OMITTED] T4773.119

[GRAPHIC] [TIFF OMITTED] T4773.120

[GRAPHIC] [TIFF OMITTED] T4773.121

[GRAPHIC] [TIFF OMITTED] T4773.122

[GRAPHIC] [TIFF OMITTED] T4773.123

[GRAPHIC] [TIFF OMITTED] T4773.124

[GRAPHIC] [TIFF OMITTED] T4773.125

[GRAPHIC] [TIFF OMITTED] T4773.126

[GRAPHIC] [TIFF OMITTED] T4773.127

[GRAPHIC] [TIFF OMITTED] T4773.128

[GRAPHIC] [TIFF OMITTED] T4773.129

[GRAPHIC] [TIFF OMITTED] T4773.130

[GRAPHIC] [TIFF OMITTED] T4773.131

[GRAPHIC] [TIFF OMITTED] T4773.132

[GRAPHIC] [TIFF OMITTED] T4773.133

[GRAPHIC] [TIFF OMITTED] T4773.134

[GRAPHIC] [TIFF OMITTED] T4773.135

[GRAPHIC] [TIFF OMITTED] T4773.136

[GRAPHIC] [TIFF OMITTED] T4773.137

[GRAPHIC] [TIFF OMITTED] T4773.138

[GRAPHIC] [TIFF OMITTED] T4773.139

[GRAPHIC] [TIFF OMITTED] T4773.140

[GRAPHIC] [TIFF OMITTED] T4773.141

[GRAPHIC] [TIFF OMITTED] T4773.142

[GRAPHIC] [TIFF OMITTED] T4773.143

[GRAPHIC] [TIFF OMITTED] T4773.144

[GRAPHIC] [TIFF OMITTED] T4773.145

[GRAPHIC] [TIFF OMITTED] T4773.146

                                 <all>

</pre></body></html>
